                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-FM-13-36                                     Office of Audits                                 September 2013




      Audit of Selected Working Capital Fund
          Cost Center Financial Results




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                        UNCLASSIFIED United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector Genl'ral




                                            PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General ' s (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the financial results oftwo Department working capital fund cost
centers - Secure Warehouses and Information Technology. The report is based on interviews
with employees and officials of relevant agencies and institutions, direct observation, and a
review of applicable documents.

       OIG contracted with the independent public accountant, Kearney & Company, P.C., to
perform this audit. The contract required that Kearney perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Kearney's report is included.

        Kearney identified areas in which improvements could be made in the Cost Centers' fee-
setting and calculation methodologies and identifying and properly charging all Cost Center
operating expenses.

       OIG evaluated the nature, extent, and timing of Kearney's work; monitored progress
throughout the audit; reviewed Kearney's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with Kearney's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management' s response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                  /.L~-~
                                      Harold W. Geisel
                                      Acting Inspector General




                                        UNCLASSIFIED
                                                        1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                        PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



Audit of Selected Working Capital Fund Cost Center Financial Results



Office of Inspector General
U.S. Department of State
Washington, D.C.

Kearney & Company, P.C. (referred to as “we” in this letter), has performed an audit of selected
working capital fund cost center financial results. This performance audit, performed under
Contract No. SAQMMA09D0002, was designed to meet the objective identified in the report
section titled “Objective” and further defined in Appendix A, “Scope and Methodology,” of the
report.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and the related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.




Kearney & Company, P.C.
Alexandria, Virginia
July 18, 2013
                           UNCLASSIFIED


Acronyms
ABC        activity based costing
A Bureau   Bureau of Administration
A/EX/WCF   Bureau of Administration, Executive Office, Working Capital Fund
           Division
FAH        Foreign Affairs Handbook
GAO        Government Accountability Office
GFMS       Global Financial Management System
ILMS       Integrated Logistics Management System
IRM        Bureau of Information Resource Management
IT         Information Technology
OIG        Office of Inspector General
S-ELP      Secure-Expedited Logistics Program
SW         Secure Warehouses
WCF        Working Capital Fund
WMS        Warehouse Management System




                           UNCLASSIFIED
                                                          UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................2

Objective……. .................................................................................................................................7

Audit Results ..................................................................................................................................7

           Finding A. Secure Warehouses Cost Center Did Not Collect Sufficient Fees To Sustain
                      Operations .........................................................................................................7
           Finding B. Information Technology Cost Center Collected More Fees than Necessary
                      To Sustain Operations .....................................................................................19

List of Recommendations……. .....................................................................................................33

Appendices
      A. Scope and Methodology................................................................................................35
      B. Bureau Response ..........................................................................................................43




                                                          UNCLASSIFIED
                                        UNCLASSIFIED


                                     Executive Summary

        Government agencies use shared services, financed through revolving funds, to improve
operational efficiencies. The Department operates and maintains a Working Capital Fund
(WCF), a type of revolving fund, which does not receive appropriated funds. Instead, it finances
its operations through the collection of fees from its customers. Federal regulations and
Department policies require that WCFs charge sufficient fees to cover all operating and overhead
expenses but not in excess of what is needed to cover costs. The Department’s WCF includes 37
individual cost centers that provide unique services.

        The objective of this audit was to determine whether the fees collected by two of the
Department’s WCF cost centers, Secure Warehouses (SW) and Information Technology (IT),
were sufficient to cover all costs required to sustain operations for those activities. An external
audit firm, Kearney & Company, P.C. (Kearney), acting on behalf of the Office of Inspector
General (OIG), performed this audit.

        Kearney found that the SW Cost Center did not collect sufficient fees to cover its costs.
SW Cost Center expenses exceeded revenue by $8.8 million in total from FY 2005 through
FY 2012. One reason that expenses exceeded revenue was that the Bureau of Administration (A
Bureau) did not consider the SW Cost Center to operate independently from another WCF cost
center for financial purposes. Instead, the A Bureau considered the gains and losses of two
related cost centers—the SW Cost Center and the Freight Forwarding Service Center—to offset
each other. In addition, revenue was not sufficient because the Cost Center had delayed the
implementation of fee increases while obtaining customer buy-in for the fees and had not
formally reassessed its fees since FY 2005. SW Cost Center officials indicated that a formal
reassessment of the Cost Center’s fees would be performed after the SW Cost Center moved to a
consolidated warehouse in FY 2013. In addition, the SW Cost Center paid expenses, amounting
to approximately $9.5 million from FY 2005 through FY 2012, that were not appropriate Cost
Center expenses and did not fully bill its customers for one of its services.

        Kearney also found that SW Cost Center operating expenses, totaling approximately $4.1
million in FY 2012, were paid from appropriated funds or other WCF cost center revenue. Had
the additional operating expenses been paid by the SW Cost Center, the overall loss would have
increased significantly. As a result, the SW Cost Center did not have a clear understanding of its
actual financial position and could not determine the amount of fees that would be sufficient to
sustain its operations. Kearney estimated that a total of $31.8 million in non-Cost Center funds
had been used to pay for Cost Center expenses since 2005. Moreover, part of the losses covered
by non-Cost Center funds related to services provided to other agencies. Kearney estimated that
the SW Cost Center had undercharged other agencies by as much as $2.6 million during
FY 2005 to FY 2012. Had the Department collected these funds from other agencies rather than
using its own funds to subsidize the SW Cost Center operations, it would have been able to put
the funds to better use.

        Kearney found that the IT Cost Center collected fees in excess of the amount needed to
cover the costs to sustain its operations. Specifically, IT Cost Center revenue exceeded expenses
by approximately $26 million in total from the Cost Center’s inception in FY 2009 through FY

                                             1
                                        UNCLASSIFIED
                                        UNCLASSIFIED

2012. Bureau of Information Resource Management (IRM) officials were aware of this situation
and indicated that they were considering how to address the excess funds. Revenue exceeded
expenses because some operating costs, amounting to approximately $2.8 million in FY 2012,
were paid from non-Cost Center funds and the Cost Center received $1.5 million in appropriated
funds that were not earned. Kearney also found that the IT Cost Center’s fee-setting
methodology did not consider the Cost Center’s retained funds or future changes to customer
needs. In addition, during FY 2009 through FY 2012, the Cost Center did not have an effective
method to determine the number of desktop computers in use by its customers, and the Cost
Center had provided services to nonserviced bureaus and offices that were not billed for the
services. As a result, the IT Cost Center did not have a true understanding of its actual financial
position and could not establish fees in a manner that covered, but did not greatly exceed, its cost
of operations. Kearney calculated that the Cost Center charged its customers as much as $350
more per desktop computer than was necessary, amounting to approximately $18.2 million
during FY 2011 to FY 2012. These funds could have been used by customers for other
priorities. In addition, the $2.8 million paid during FY 2012 using non-Cost Center funds could
also have been put to better use. Further, the IT Cost Center may not have charged its customers
correctly for the number of desktop computers that were serviced and may have paid more, or
less, than warranted to the contractor operating the IT Help Desk.

        OIG made 15 recommendations to the Department related to improving the Cost Centers’
fee-setting and calculation methodologies and identifying and properly charging all Cost Center
operating expenses.

        In the August 27, 2013, joint response (see Appendix B) to the draft report, the A Bureau
concurred with the 11 recommendations addressed to it, and IRM concurred with three of the
four recommendations addressed to it and stated that IRM had taken action to address the fourth
recommendation. Based on the response, OIG considers Recommendations 1–13 and 15
resolved, pending further action, and Recommendation 14 closed. Management’s responses and
OIG’s replies to those responses are included after each recommendation.

                                          Background
       Agencies can improve their operational efficiency through the use of shared services,
which are often financed through revolving funds. In 1963, the Department received
congressional approval to operate and maintain a WCF, a type of revolving fund, to

       •   Provide a more effective means for controlling the costs of goods and services
           produced by commercial-type activities.
       •   Provide an effective and flexible way to finance, budget, and account for commercial-
           type activities.
       •   Encourage cost consciousness and efficiency for users and suppliers of services.
       •   Promote a buyer-seller relationship between the producing activity and the customer.

        The WCF does not receive funds through appropriation legislation. Instead, the WCF
finances operations through the collection of fees from customers. According to its authorizing
legislation in the United States Code, the Department’s WCF “shall be reimbursed, or credited

                                             2
                                        UNCLASSIFIED
                                                UNCLASSIFIED

with advanced payments…for supplies and services at rates which will approximate the expense
of operations, including accrual of annual leave and depreciation of plant and equipment of the
fund.” 1

        The Department’s WCF provides services to bureaus and offices throughout the
Department and to other Federal agencies. According to the Department’s FY 2013
Congressional Budget Justification, for management purposes, the Department’s WCF is divided
into 37 individual cost centers, including the SW and IT Cost Centers. Each WCF cost center
provides unique services to customers, such as operating the Department’s shuttle bus, ordering
newspapers, shipping goods overseas, and providing IT services. The A Bureau Executive
Office, Working Capital Fund Division (A/EX/WCF), has financial responsibility for the WCF
cost centers; however, the cost centers operationally report to other bureaus or offices within the
Department. For instance, the SW Cost Center is organizationally part of the A Bureau’s Office
of Logistics Management, and the IT Cost Center is organizationally part of IRM. As part of its
financial oversight of the cost centers, A/EX/WCF is responsible for annually reviewing the fees
charged by the cost centers.

Secure Warehouses Cost Center

        The SW Cost Center provides warehousing services to both Department customers and
outside agencies, 2 such as the Department of Justice and the Defense Intelligence Agency,
primarily for items that will be shipped to controlled access areas at overseas posts. SW Cost
Center services are necessary to ensure that these items are treated with the proper level of
security prior to their arrival at post. During FY 2012, the SW Cost Center offered nine services,
as detailed in Table 1.

Table 1. SW Cost Center Services and Fees
         Service                                 Description                                    Fee Amount
                         To maintain the proper level of security, when goods are         $350 per receipt plus an
                         procured for a controlled access area at post, the vendor        additional $0.30 per pound
    Blind Procurement
                         cannot know the final destination of the goods. The goods        over 400 pounds.
      Flow-Through
                         are shipped to the SW Cost Center where they are received,
      Receiving and
                         inspected, and packed for shipment to their final destination.
         Packing
                         During this process, Cost Center personnel validate that the
                         goods received match the goods ordered.
                         This service is used for acquiring equipment for large           $50 per line item received
                         projects, such as building renovations. In addition to           with a minimum charge of
                         receiving, inspecting, and packing the goods, the Cost Center    $350 per receipt.
    Project-In-Transit
                         coordinates with the post to ensure the items are shipped in a
     Receiving and
                         logical manner. For example, all parts must be included
         Packing
                         when cubical walls are sent to a post, and rug tiles should be
                         sent in advance of the cubicle walls. The items received for
                         these services are typically in the warehouse for 60 days.
                         Because the procurement of goods can take several months,        Price based on product cost
    Secure-Expedited
                         the SW Cost Center purchases common goods used in                plus a 10 percent service
    Logistics Program
                         controlled access areas based on anticipated needs and           fee.
        (S-ELP)
                         allows posts to make a material stock request rather than

1
    22 U.S.C. §2684, “Capital Fund for Department of State.”
2
    Since FY 2010, approximately 9 percent of warehousing services were provided to outside agencies.

                                                     3
                                                UNCLASSIFIED
                                                  UNCLASSIFIED

        Service                                    Description                                       Fee Amount
                         initiating the procurement process. Over the past few years,
                         posts’ use of the S-ELP program has grown significantly.
                         In certain instances, the Cost Center allows Department              $10 per line item per
                         offices to store inventory items in its warehouse. The               month, with a minimum
     Custodial Stock
                         warehouse staff is responsible for receiving and tracking the        charge of $1,600 per
                         goods.                                                               quarter per customer.
                         The Cost Center charges customers for items that are not             $1 per cubic foot per
                         removed from the warehouses in a timely manner to deter              month.
                         customers from purchasing items without the intention of
    Extended Storage
                         immediately shipping them. The charges are applied after 30
                         days for Blind Procurement Flow-Through and 60 days for
                         Project-In-Transit services.
                         The Cost Center enters into rental agreements with various           $1 per cubic foot per
                         bureaus and offices to store excess property or files. The           month, with a minimum of
    Long-Term Storage
                         items being stored are not specifically tracked by the Cost          $1,600 per quarter.
                         Center.
                         When a post has damaged equipment that can only be fixed             $10 per item.
                         in the United States, the item is sent to the Cost Center
    Customer Service
                         which facilitates the shipment of the item back to the
         Tickets
                         manufacturer. The Cost Center also receives and packs the
                         item for return shipment to the post after repair.
                         The Cost Center packs items in accordance with a country’s           Total packing cost plus a 5
     Packing Request
                         requirements on behalf of Department bureaus and offices.            percent administration fee.
                         The Frankfurt Secure Warehouse assists posts with secure             5 percent surcharge with a
                         local purchases, up to $25,000 per transaction, to aid with          minimum charge of $100
                         special or priority needs.                                           and a maximum charge of
      Secure Local                                                                            $1,000. For premium
       Purchases                                                                              service, $50 per hour with
                                                                                              a minimum charge of $150
                                                                                              and a maximum charge of
                                                                                              $1,500.
Source: Prepared by Kearney based on meetings held with SW Cost Center personnel and the Cost Center’s Current Rate
Schedule from the Cost Center’s Intranet Web site <https://a/m/state.sbu/site/ex/WCF/Pages/SecureLogisticsDivision.aspx>,
accessed on May 29, 2013.

        SW Cost Center operations are closely integrated with those of the Freight Forwarding
Service Center, which is another WCF fee-for-service provider that is responsible for shipping
items that are received, inspected, and packed by the SW Cost Center to their final destination.

        The SW Cost Center manages the services that it provides through the Integrated
Logistics Management System (ILMS), 3 the Department’s primary asset management system.
In FY 2011, the Cost Center implemented a new ILMS module, the Warehouse Management
System (WMS), which automated the warehousing processes and provided greater reporting
functionality. For example, WMS enables the Warehouse Manager to run a report listing all
items shipped during a period of time. WMS also improved the transparency over classified
transactions. Before WMS, the Cost Center had to manually prepare vouchers 4 for classified



3
  ILMS combines purchasing, procurement, warehousing, transportation, property management, and other functions
into one integrated system.
4
  Vouchers are documents used to bill customer for services provided.

                                                       4
                                                  UNCLASSIFIED
                                              UNCLASSIFIED

transactions. 5 WMS allows the SW Cost Center to electronically prepare the vouchers and
automatically send the vouchers to the Department’s accounting system, the Global Financial
Management System (GFMS), for processing.

        Until May 2013, the SW Cost Center was primarily located in Springfield, VA. In
May 2013, the SW Cost Center consolidated its domestic warehousing facilities at a new
location in Lorton, VA. According to the Department, the new facility increases efficiency by
consolidating redundant work centers, reduces the multiple transfers of material between
warehouses, and increases storage capacity. In addition, the SW Cost Center maintains a small
warehouse operation in Frankfurt, Germany, for S-ELP services.

Information Technology Cost Center

        The IT Cost Center was formed in FY 2009 to consolidate all domestic IT Help Desk and
desktop computer support services within the Department. Prior to the IT Cost Center, each
bureau maintained its own independent IT Help Desk and desktop computer support operations.
The Department determined that a centralized point of service would facilitate faster resolution
of IT issues and provide the Department with cost savings as networks would be centrally
managed and efficiencies would be achieved. When the IT Cost Center was formed, domestic
bureaus and offices were given the option to become customers or to maintain their independent
operations. As of FY 2012, the IT Cost Center provided services for 43 customer bureaus and
offices with approximately 27,000 desktop computers.

       The services provided by the IT Cost Center are documented in a Master Service Level
Agreement that is signed by both the IT Cost Center and its customers. These services cover
desktop computers operating on OpenNet, the Department’s primary network, and ClassNet, 6 the
network used to process classified information. During FY 2012, the IT Cost Center charged its
customers an annual flat fee of $1,790 for each desktop computer serviced. The service
categories and examples of the services provided by the Cost Center in FY 2012 for each
category are listed in Table 2.




5
  ILMS previously produced vouchers only for unclassified transactions in the Global Financial Management
System (GFMS).
6
  The IT Cost Center provides service for both Thick Client ClassNet computers, which are the standard ClassNet
desktop computers, and Thin Client ClassNet computers, which are computers whose operating systems run on a
remote server, meaning they do not have an internal hard drive. Based on discussions with Cost Center
management, approximately 50 percent of classified computers are currently Thin Client, and another 10 percent of
the population is expected to become Thin Client computers in FY 2013.

                                                   5
                                              UNCLASSIFIED
                                                 UNCLASSIFIED


       Table 2. IT Cost Center Service Categories and Examples of Services
                        Service Category                                     Examples of Services
                                                               •   Unlock an account
                    Desktop Computer Support                   •   Map a printer to the network
                                                               •   Restore files
            Network, Data, and Infrastructure Support          •   Support network connections and devices
                                                               •   Create a new account
                Access, Permission, and Password
                                                               •   Restore access to a network drive
         Media, Events, and the Department’s Broadcast         •   Support video conferences
                           Network
                                                               • Ensure the desktop computer environment is
                                                                 in compliance with Department policies
                      Security and IT Policy
                                                               • Execute desktop computer security audits,
                                                                 including random security scans
                                                               • Support exchange email
                               Email
                                                               • Create an email distribution list
              Telephone, Blackberry, Open Network              • Provide employees with loaner laptops upon
                   Everywhere fob, and Laptop                    request
       Source: Prepared by Kearney based on information contained in the IT Cost Center Master Service Level
       Agreement.

        IT Cost Center services include general support and maintenance services, such as server
repairs, which are not always visible to customers. As part of its general support and
maintenance services, the Cost Center is responsible for inventory management for the desktop
computers that are owned by the IT Cost Center. Since its inception, the IT Cost Center has been
transferring ownership of customers’ desktop computers from the customers to the Cost Center.
As of the end of FY 2012, only 18 of 43 customers had desktop computers that were not fully
owned by the Cost Center.

        The IT Cost Center also provides IT Help Desk services to its customers. To obtain issue
resolution through the IT Help Desk, customers submit a request for service online using the
Remedy system 7 or call the IT Help Desk. Once a request is received, IT Help Desk personnel
create service tickets in Remedy for tracking purposes, assess the severity of the service request,
assign the request to the appropriate service team for resolution, and close the Remedy ticket. If
personnel in bureaus and offices who are not IT Cost Center customers submit a Remedy ticket
or if an IT Cost Center customer creates a ticket for an out-of-scope service, IT Help Desk
personnel route the ticket to the appropriate IT support group for resolution.

        The IT Cost Center uses a contractor to provide many of its services, including operating
the IT Help Desk, assisting in inventory management, and transitioning new customers to the
Cost Center. The Department paid the contractor for the services provided based upon several
factors, primarily the number of desktop computers serviced by the IT Cost Center. 8



7
  The Remedy system is operated and maintained by IRM’s Business Management and Planning Division, Project
Services Office.
8
  Approximately 97 percent of the payments made to the contractor were based on the number of desktop computers
serviced.

                                                      6
                                                 UNCLASSIFIED
                                             UNCLASSIFIED


                                                  Objective

       The objective of this audit was to determine whether the fees collected for the SW Cost
Center and the IT Cost Center were sufficient to cover all costs required to sustain operations for
those activities.

                                                 Audit Results

Finding A. Secure Warehouses Cost Center Did Not Collect Sufficient Fees
To Sustain Operations
        The SW Cost Center did not collect sufficient fees to cover the costs required to sustain
its operations, as required by the Foreign Affairs Handbook 9 (FAH). The SW Cost Center
recorded expenses that exceeded its revenue by $8.8 million in total from FY 2005 through FY
2012. SW Cost Center expenses exceeded revenue because the A Bureau did not consider the
SW Cost Center to operate as a stand-alone organization within the WCF. Instead, for financial
purposes, the A Bureau considered the consolidated results of the SW Cost Center and the
Freight Forwarding Service Center, which work closely together. Although the services of the
two cost centers may be closely integrated, the Department overcharges customers of the Freight
Forwarding Service Center to offset the SW Cost Center losses as a result of consolidating the
financial results of the cost centers.

        Another reason that revenues were not sufficient was because the SW Cost Center did not
implement its fee-setting methodology effectively. Specifically, the Cost Center did not
implement the rate increases recommended by a FY 2005 fee study until FY 2008. According to
A Bureau officials, the delay was due to the time it took to obtain customer buy-in of the new
fees. In addition, the Cost Center had not formally reassessed its fees since an FY 2005 fee
study. The A Bureau was in the process of planning for a new fee study.

         Also contributing to the SW Cost Center losses, the Cost Center did not properly record
or bill some financial transactions. Specifically, the SW Cost Center paid some Freight
Forwarding Service Center shipping expenses, totaling approximately $9.5 million from FY
2005 through FY 2012. In addition, the Cost Center did not fully bill its customers for Extended
Storage services. Kearney also found that SW Cost Center operating expenses, totaling
approximately $4.1 million in FY 2012, were paid from appropriated funds or by other WCF
cost centers. Had the additional operating expenses been paid by the SW Cost Center, the
overall loss for the Cost Center would have increased significantly.

        Without an accurate record of all expenses and revenue, the SW Cost Center did not have
a clear understanding of its actual financial position; nor could it determine the amount of fees
sufficient to sustain its operations. In addition, Kearney estimated that $31.8 million in
appropriated funds and other WCF cost center revenue was used to pay SW Cost Center
expenses during FY 2005 to FY 2012. Moreover, part of the losses covered by non-Cost Center
funds related to services provided to other agencies. Kearney estimated that during FY 2005 to

9
    4 FAH-3 H-113.4-3, “Working Capital Fund.”

                                                  7
                                             UNCLASSIFIED
                                                   UNCLASSIFIED

FY 2012 the Cost Center undercharged other agencies by as much as $2.6 million. Had the
Department collected these funds from other agencies rather than using its own funds to
subsidize the SW Cost Center operations, it would have been able to put the funds to better use.

Cost Center Expenses Had Exceeded Fees Collected

        The FAH 10 states that the charges for WCF services “must be sufficient to cover all
operating and overhead expenses, including the replacement of capital assets, required to sustain
activity operations.” The Principles of Federal Appropriations Law 11 further states that
revolving funds “are intended to operate on a breakeven basis or reasonably close to it, over the
long term.” From FY 2005 through FY 2012, the SW Cost Center had not collected sufficient
fees to sustain its operations in seven of eight years, as shown in Table 3.

             Table 3. SW Cost Center Financial Results for FY 2005 – FY 2012
                                                                                    Profit/(Loss)
                                  Revenue                Expenses
              Fiscal Year                                                      Amount
                                (in millions)          (in millions)                          Percent
                                                                             (in millions)
                  2005                      $4.6                    $6.1              ($1.5)            (33)
                  2006                       4.3                     4.4               (0.1)             (2)
                  2007                       3.8                     5.4               (1.6)            (42)
                  2008                       5.6                     6.5               (1.0)            (18)
                  2009                       9.1                     9.8               (0.8)             (8)
                  2010                       8.6                    12.0               (3.3)            (39)
                  2011                      10.8                    12.2               (1.4)            (13)
                  2012                      13.0                    12.1                0.8                6
                  Total                    $59.8                   $68.6              ($8.8)            (15)
            Source: Prepared by Kearney based on GFMS Data Warehouse General Ledger Account Activity Extract report.
            Note: Numbers in this table may not add because of rounding.

        FY 2012 was the only year in which expenses did not exceed revenue. Kearney’s
analysis of the SW Cost Center’s FY 2012 financial results indicated that there was a $2 million
increase in revenue for one category of service—S-ELP. The S-ELP fee structure, cost plus a
fixed percentage, ensured that the amount of the fee increased with general inflation. When
S-ELP represents a greater percentage of the Cost Center’s operations, which was the case in
FY 2012, the operating position of the Cost Center improves. Despite this 1 year improvement,
as of September 30, 2012, the SW Cost Center had lost approximately $8.8 million, which
represented a loss margin of approximately 15 percent since FY 2005.

Financial Results of the Secure Warehouses Cost Center Were Consolidated

       One reason that the SW Cost Center had operated at a loss was that, according to
A Bureau officials, the SW Cost Center is not considered a stand-alone organization within the
WCF. Instead, the A Bureau consolidated the financial results for the SW Cost Center and the
Freight Forwarding Service Center. According to the A Bureau officials, the A Bureau’s
philosophy is that these cost centers, which provide interrelated services, should break even at a

10
     Ibid.
11
     Principles of Federal Appropriations Law, 3rd ed., Vol. III, p 12-128 (GAO-08-978SP, Sept. 2008).

                                                        8
                                                   UNCLASSIFIED
                                              UNCLASSIFIED

consolidated level but would not have to break even individually. One A Bureau official said
that the A Bureau recognizes that certain cost centers consistently operate at a profit, while
others, such as the SW Cost Center, may never break even. The A Bureau accepts that situation
as long as overall the cost centers operate at a small profit.

      The Freight Forwarding Service Center reported a 1 percent profit for FY 2005 through
FY 2012, as shown in Table 4.

     Table 4. Freight Forwarding Service Center Financial Results for FY 2005–FY 2012
                                                                                    Profit/(Loss)
                                  Revenue                Expenses
          Fiscal Year                                                          Amount
                                (in millions)          (in millions)                          Percent
                                                                             (in millions)
              2005                         $43.6                   $42.7                $1.0                2
              2006                          73.2                    47.1                26.1               36
              2007                         114.7                   132.8              (18.1)             (16)
              2008                         146.4                   140.5                 5.9                4
              2009                         165.9                   178.3              (12.5)              (8)
              2010                         206.6                   191.0                15.6                8
              2011                         200.3                   199.6                 0.8                0
              2012                         215.7                   220.3               (4.6)              (2)
              Total                     $1,166.4                $1,152.3              $14.1                 1
     Source: Prepared by Kearney based on GFMS Data Warehouse General Ledger Account Activity Extract report.
     Note: Numbers in this table may not add because of rounding.

       When the overall loss recorded for the SW Cost Center ($8.8 million as shown in
Table 3) is netted against the overall profit recorded for the Freight Forwarding Service Center
($14.1 million), the result is a profit of $5.3 million for FY 2005 through FY 2012. Although on
a consolidated basis, the results of the Freight Forwarding Service Center covers the losses of the
SW Cost Center, the Freight Forwarding Service Center did not collect sufficient revenues in
some years to fund the SW Cost Center’s losses.

        Although the consolidated Freight Forwarding Service Center’s profits may currently be
sufficient to cover the losses of the SW Cost Center, the A Bureau should still ensure that fees
charged for all services fairly represent the actual costs of those services. The intent of a WCF is
to behave in a commercial manner to ensure that costs are controlled more efficiently and to
encourage cost consciousness among users. In fact, a SW Cost Center official stated that once
the Cost Center began charging a fee for services, the number of requests for items decreased
because customers understood the financial impact related to the acquisitions. In order to
subsidize the SW Cost Center operations, the A Bureau overcharged customers that used
Transportation services. This practice does not promote a business type relationship that
encourages customers to make informed decisions about needs because the customers do not
know the accurate costs of the services being provided. If the A Bureau chooses to consider the
SW Cost Center on a consolidated basis with the Freight Forwarding Service Center, the A
Bureau should better define the Cost Centers organizationally.




                                                   9
                                              UNCLASSIFIED
                                                UNCLASSIFIED


Fee-Setting Methodology Implementation Was Not Effective

        According to the Government Accountability Office 12 (GAO), methodologies for
establishing rates should be “transparent and equitable” and “allow agencies to ensure that rates
charged recover agencies’ actual costs and reflect customers’ service usage.” The rates charged
by the SW Cost Center were not sufficient to cover its costs in part because the Cost Center’s
implementation of its fee-setting methodology was not effective. Specifically, the Cost Center
did not implement the rate increases recommended in a FY 2005 activity based costing (ABC)
study until FY 2008. In addition, the Cost Center had not formally reassessed its fees since the
FY 2005 ABC study.

        Activity Based Costing Study Fee Increases Were Delayed

        In FY 2005, an external contractor performed an ABC study of the SW Cost Center’s
operations to determine whether the rates charged at that time were sufficient. 13 The contractor
used FY 2004 data to analyze the cost of operations and the services provided. The study
determined the total cost of the activities required to perform Cost Center services and associated
a cost driver, such as number of receipts or number of orders, with each activity. The study
allocated costs to each service and established per-service rates. The study recommended that
the Cost Center increase certain rates by as much as 100 percent. The rate increases
recommended by the ABC study are provided in Table 5.

        Table 5. ABC Study Recommended Rate Increases
                Services                 Pre-ABC Study Rates                     Recommended Rates
                                       $20 per line received with a            $40 per line received with a
          Project-In-Transit           minimum charge of $255 per              minimum charge of $255 per
                                                 receipt.                                receipt.
          Customer Service
                                                 No Charge.                            $10 per item.
          Tickets
          Extended Storage            $0.45 per cubic foot per month.          $1 per cubic foot per month.
        Source: Kearney prepared based on information from the Washington Logistics Center Activity Based Costing
        Deliverable, issued in May 2005.

        Although the ABC study was completed in FY 2005, according to SW Cost Center
personnel, the Cost Center did not implement the rates recommended by the study until FY 2008.
SW Cost Center officials stated that the delay was because it took the Cost Center some time to
obtain customer buy-in of the new fees. In addition, according to an A/EX/WCF official, the
delay was necessary to allow Cost Center customers to adjust their operating budgets.

        Formal Reassessment of Fee Amounts Was Not Performed

       According to the FAH, 14 fees charged by the Department’s WCF cost centers are to be
reassessed annually. In addition, GAO guidance 15 recommends that when setting fees a WCF

12
   Intragovernmental Revolving Funds (GAO-12-56, Nov. 2012).
13
   Kearney did not assess how the SW Cost Center rates that were in place before the ABC study were determined.
14
   4 FAH-3 H-113.4-3, “Working Capital Fund.”
15
   Intragovernmental Revolving Funds (GAO-12-56, Nov. 2012).

                                                     10
                                                UNCLASSIFIED
                                                   UNCLASSIFIED

should “build in flexibility” to ensure rates are established in a manner that enables a WCF to
recover its costs of operations over time.

       Since implementing the recommended rate increases in FY 2008, the SW Cost Center
had modified its fee structure for some services to better match revenues to the cost of
operations. The services for which the rate charged as of May 2013 did not match the rate
recommended by the ABC study are listed in Table 6. The Cost Center could not provide
Kearney with detailed information on when the rates were changed or support for how the
modifications were determined.

Table 6. SW Rates Schedule, ABC Study and Current Rates
           Service                            ABC Study Rates                                      Current Rates

    Blind Procurement            $255 per receipt plus an additional $0.20             $350 per receipt plus an additional
      Flow-Through                     per pound over 500 pounds.                      $0.30 per pound over 400 pounds.
                                     $40 per line item received with a                  $50 per line item received with a
     Project-In-Transit
                                  minimum charge of $255 per receipt.                 minimum charge of $350 per receipt.
                                    Price based on product cost; target               Price based on product cost plus a 10
           S-ELP
                                      weighted margin of 16 percent.                           percent service fee.
                                                                                         $10 per item, with a minimum
      Custodial Stock                             $10 per item.                         charge of $1,600 per quarter per
                                                                                                    customer.
                                                                                       $1 per cubic foot per month, with a
    Long-Term Storage                       No charge established.                       minimum charge of $1,600 per
                                                                                              quarter per customer.
                                                                                       Total packing cost plus a 5 percent
     Packing Request                        No charge established.
                                                                                               administration fee.
Source: Kearney prepared based on information contained in the Washington Logistics Center Activity Based Costing
Deliverable, issued in May 2005, and the Cost Center’s Current Rate Schedule published on the Cost Center’s Intranet Web site
<https://a/m/state.sbu/site/ex/WCF/Pages/SecureLogisticsDivision.aspx>, accessed on June 28, 2013.

        Although some fee modifications were made, the SW Cost Center had not performed a
formal fee reassessment for all services since the FY 2005 ABC study. As a result, significant
changes in the Cost Center’s operations had not been adequately reflected in the Cost Center’s
rates. For example, as security requirements increased, the Cost Center’s operating expenses
doubled since 2005. Additionally, some current services, such as Long-Term Storage, were not
offered at the time of the ABC study.

        Both SW Cost Center officials and officials from the A Bureau stated that the Department
had been reluctant to reassess the Cost Center’s fees and increase rates to cover all costs because
of financial constraints on posts. The officials also expressed concern that if the Cost Center
were to raise rates to a level that covered all costs of operations, posts might consider the costs
too high and would obtain goods for controlled access areas through unsecure methods.
However, during this audit, SW Cost Center officials acknowledged the need to perform a formal
reassessment of its fees and informed Kearney that, even before the beginning of the audit, the
Cost Center had been in the process of reengineering its processes and revalidating its fees
pending its move to a consolidated warehouse in May 2013. SW Cost Center management
believed that consolidating operations into one warehouse would achieve efficiencies and result
                                                        11
                                                   UNCLASSIFIED
                                           UNCLASSIFIED

in cost savings. The Cost Center had begun to preliminarily review financial data. However, the
Cost Center did not plan to conduct the formal fee analysis until there was at least 1 year of
financial data available related to operations at the consolidated warehouse.

Some Expenses Were Not Properly Recorded and Some Revenue Was Not Properly Billed

       Improperly recorded or billed financial transactions also contributed to the SW Cost
Center’s losses. Specifically, the Cost Center used SW Cost Center revenue to fund shipping
services provided by the Freight Forwarding Service Center and did not fully charge its
customers for Extended Storage services.

       Secure Warehouses Cost Center Revenue Was Improperly Used For Transportation
       Costs

        The SW Cost Center incurred some costs for transportation of goods, which was not a
service provided by the Cost Center. The Cost Center was responsible for preparing packages
for shipment; however, the actual shipments were normally handled by the WCF Freight
Forwarding Service Center. Kearney tested a statistical sample of 48 expense transactions
recorded to the SW Cost Center from FY 2007 to FY 2012. (Information on the sampling
methodology is provided in the Detailed Sampling Methodology section in Appendix A.) Of 48
transactions tested, 8 transactions, amounting to $152,000, were for transportation charges that
should have been paid by the Freight Forwarding Service Center. SW Cost Center personnel
stated that these 8 expenses were payments made to ship items to their final destinations.

       Based on the results of the sample, Kearney further analyzed all FY 2007 through
FY 2012 SW Cost Center expenses to identify transportation costs. The Cost Center paid
transportation costs every year from FY 2007 through FY 2012. In FY 2012, the SW Cost
Center spent $1.7 million for transportation, which represented almost 14 percent of its total
expenses for that year. Because of the interrelated financial results for these two Cost Centers, A
Bureau officials did not believe it was necessary to ensure that the costs were recorded to the
Freight Forwarding Service Center. The amount of transportation expenses paid by the SW Cost
Center that should have been paid by the Freight Forwarding Service Center is provided in
Table 7.

                 Table 7. SW Cost Center Transportation Expenses
                                             Transportation Expenses
                         Fiscal Year                    Paid
                                                    (in millions)
                                2007                                         $0.6
                                2008                                          1.2
                                2009                                          1.6
                                2010                                          2.4
                                2011                                          2.0
                                2012                                          1.7
                                Total                                        $9.5
                 Source: Kearney prepared based on GFMS data.



                                                12
                                           UNCLASSIFIED
                                              UNCLASSIFIED


        Customers Were Not Fully Charged

        The SW Cost Center did not sufficiently charge its customers for Extended Storage. In
an effort to achieve efficiency for the Blind Procurement Flow-Through and Project-In-Transit
services, the SW Cost Center charged an Extended Storage fee of $1 per cubic foot per month for
items that were received at the Cost Center but did not ship to post within a specified time
period. However, the method used by the SW Cost Center to calculate the charges for this
service was flawed. Instead of tracking the period of time that items remained in the warehouse
and calculating the fee when the items were provided to the customers, the SW Cost Center
periodically performed a system calculation to determine which items in the warehouse at that
point in time had incurred Extended Storage charges. Therefore, if a customer used the
Extended Storage service but obtained its items before the SW Cost Center ran the system
calculation, the customer would not be charged the Extended Storage fee.

        From FY 2008, when the system calculation of the Extended Storage fee was
implemented, to FY 2012, the SW Cost Center ran the calculation on only 177 days of the 1,305
possible business days, or approximately 14 percent of the time. Further, Kearney observed that
the frequency with which the calculation was run was not consistent. For example, in January
2012 the calculation was run 10 times while in July 2012 it was run once. Between January
2008 and September 2012, there were four instances where the calculation was not run for 2
months or more. Because of the lack of sufficient information, Kearney was not able to estimate
the financial impact to the SW Cost Center of not sufficiently charging this fee.

       In addition, during revenue testing, 16 Kearney noted that Cost Center personnel could
exclude transactions from the automatic billing process and documentation to support the
exclusions was not always readily available. Additionally, there was no evidence that Cost
Center personnel were monitoring the exclusion of transactions from billing.

Some Secure Warehouses Cost Center Expenses Were Paid With Non-Cost Center Funds

        The SW Cost Center must collect fees “to cover all operating and overhead expenses,
including the replacement of capital assets.” 17 GAO guidance states that agencies should include
all direct and indirect costs when determining full cost, including but not limited to personnel
costs, overhead, utilities, rents, management and supervisory costs, and research. 18 However,
some Cost Center operating expenses were paid using appropriated funds or by other WCF cost
centers. For FY 2012, Kearney estimated that at least $4.1 million in recurring costs related to
the SW Cost Center were paid with other Department funds, as shown in Table 8.




16
   Information on the sampling methodology for revenue is provided in the section “Detailed Sampling
Methodology” in Appendix A.
17
   4 FAH-3H-113.4-3, “Working Capital Fund.”
18
   Federal User Fees: A Design Guide (GAO-08-386SP, May 2008).

                                                   13
                                              UNCLASSIFIED
                                                  UNCLASSIFIED


 Table 8. Estimation of Recurring SW Cost Center Expenses Paid Using Other Funds in
 FY 2012
                                                                                                         Amount
       Description of Expense                            Funding Source
                                                                                                       (in millions)
     WMS – System Support                      Freight Forwarding Service Center                             $1.1
     Rent and Utilities                               Appropriated Funds                                      2.7
                                       Appropriated and Freight Forwarding Service Center
     Salaries                                                                                                0.2
                                                             Funds
     Other                                    Fees from Other WCF Cost Centers                               0.1
     Total                                                                                                  $4.1
 Source: Prepared by Kearney based on review of operating expense categories necessary for Cost Center operations.

        Some recurring SW Cost Center operating costs were paid from appropriated and other
funds. Specifically, appropriated funds were used to pay the cost of rent and utilities for the SW
Cost Center’s use of four domestic facilities, which Kearney estimated to cost approximately
$2.7 million annually. Appropriated funds were also used to pay the salaries of three SW Cost
Center employees, including the Director of Secure Logistics and the Director of Management
Operations. Kearney estimated that these salaries amounted to approximately $200,000
annually. In addition, A/EX/WCF performed a number of management and administrative roles
for the SW Cost Center, such as assisting in developing annual budgets. These costs, which
Kearney estimated to be approximately $100,000 annually, were covered by excess revenues
from other WCF cost centers. Further, the contractor support and maintenance costs for the
WMS module in ILMS were funded by the Freight Forwarding Service Center, even though the
SW Cost Center was also a user of the WMS module. For FY 2012, Kearney estimated that
WMS support costs of approximately $1.1 million should have been covered by the SW Cost
Center. According to SW Cost Center officials, the Cost Center did not plan to include these
recurring operating costs in its upcoming fee reassessment.

        In addition to the recurring operating costs, during FY 2011 the SW Cost Center did not
pay for its share of the design and implementation of the WMS module in ILMS. The cost of the
WMS module was funded using some appropriated funds and some funds from the Freight
Forwarding Service Center. Because the SW Cost Center is one of the primary users of WMS,
approximately $1.2 million of development costs should have been paid from SW Cost Center
revenue.

Customer Charges Were Too Low and Funds Could Have Been Put to Better Use

       The ineffective implementation of a fee-setting methodology and the improper recording
or charging of certain expenses and revenues have limited the SW Cost Center’s ability to
develop a true picture of its financial position and to establish fees that cover the total cost of
Cost Center operations. Kearney estimated the SW Cost Center’s adjusted losses for FY 2005 to
FY 2012, taking into consideration the transportation expenses inappropriately paid by the Cost
Center from FY 2005 to FY 2012, SW Cost Center expenses paid by others, 19 and the $1.2

19
  Kearney calculated the impact of expenses paid by non-Cost Center funds for FY 2005 through FY 2011 by
multiplying the amount of those expenses identified for FY 2012, $4.1 million, by U.S. Department of Labor
Consumer Price Index information. Although WMS did not exist prior to FY 2011, the system support costs for the
previous system were also paid with non-Cost Center funds. In total, Kearney estimated that all of the recurring

                                                       14
                                                  UNCLASSIFIED
                                              UNCLASSIFIED

million in expenses incurred for the development of WMS in FY 2011. The SW Cost Center
operated at a much more significant loss, $31.1 million, than was reported in the SW Cost Center
financial reports, as shown in Table 9.

       Table 9. SW Cost Center Adjusted Financial Results – FY 2005 to FY 2012
                                                                      Adjusted Profit/(Loss)
         Fiscal      Revenue         Adjusted Expense
                                                                Adjusted Amount         Adjusted
         Year      (in millions)       (in millions)
                                                                  (in millions)         Percent
          2005               $4.6                      $9.6                     ($5.0)                (109)
          2006                4.3                       8.0                      (3.7)                 (85)
          2007                3.8                       8.5                      (4.7)                (123)
          2008                5.6                       9.2                      (3.7)                 (66)
          2009                9.1                      12.1                      (3.0)                 (33)
          2010                8.6                      13.5                      (4.9)                 (57)
          2011               10.8                      15.4                      (4.6)                 (43)
          2012               13.0                      14.6                      (1.6)                 (12)
          Total             $59.8                     $90.9                    ($31.1)                 (52)
       Source: Prepared by Kearney based on GFMS Data Warehouse General Ledger Account Activity Extract
       report and an analysis of audit results.
       Note: Numbers in this table may not add because of rounding.

        Kearney concluded that the Cost Center has significantly undercharged its customers for
the services provided. 20 Although the Cost Center’s financial position has improved greatly
since FY 2005, operating at an aggregate loss of 52 percent is not a sustainable business practice
and indicates that the Department did not treat this Cost Center as a WCF cost center. Although
the Department planned to formally reassess the fees charged after its move in FY 2013, if it
does not consider all operating costs when establishing the fees, the fees will continue to be
insufficient to cover all SW Cost Center expenses. If the Cost Center does not increase the fee
amount charged to its customers, then it would need to decrease the cost of providing services to
operate as a true WCF cost center.

        Because of its losses, the SW Cost Center’s operations had been supported by
appropriated funds and excess revenues from other WCF cost centers. Kearney estimated that
this support amounted to $31.8 million from FY 2005 to FY 2012. By continually operating at a
loss, the SW Cost Center was not meeting the intent of a revolving fund, which is to encourage
cost consciousness and efficiency. Because the SW Cost Center had not developed a realistic fee
amount that would generally cover its costs, its customers were basing decisions to obtain
equipment on inaccurate cost information. If customers were charged for the actual costs of
services, customers might have made different, more cost conscious, decisions. Additionally, by
not charging sufficient fees, the Cost Center does not allow for future capital investment in the
operation.

        A portion of the losses covered by non-Cost Center funds related to services provided to
other agencies. Because the Cost Center provided services to non-Department customers, by

expenses resulted in $30.6 million in Cost Center expenses for FY 2005 to FY 2012. The $1.2 million for WMS
development in FY 2011 was added to this amount to arrive at a total of $31.8 million.
20
   Because of the complexity of the SW Cost Center operations, Kearney was not able to estimate the amount
undercharged for each service.

                                                   15
                                              UNCLASSIFIED
                                             UNCLASSIFIED

setting rates that were not sufficient to cover costs, the Department had, in effect, used its funds
to supplement other agencies’ budgets. Although it was difficult to determine the exact amount
of funds that should have been collected from other agencies, Kearney estimated that during
FY 2005 to FY 2012 the Cost Center had undercharged other agencies by approximately $2.6
million. 21 Had the Department collected these funds from other agencies rather than using its
own funds to subsidize the SW Cost Center operations, it would have been able to put its funds
to better use. Specifically, appropriated funds could have been used to support mission critical
objectives of the Department, and other cost centers could have lowered fees charged to their
customers so that the customers could better allocate their funds to support their missions.

        Recommendation 1. OIG recommends that the Bureau of Administration, Executive
        Office, Working Capital Fund Division (A/EX/WCF), in coordination with the Secure
        Warehouses (SW) Cost Center, reassess the fee amount for each of the services provided
        to ensure that all Cost Center costs are covered. If officials determine that the new fees,
        which cover all required costs, would be too high to charge to customers, then
        A/EX/WCF should identify cost savings that would reduce overall expenses or reassess
        the decision to include the SW Cost Center as a Working Capital Fund function. The
        results of the reassessment should be made available to customers.

        Management Response: The A Bureau agreed with this recommendation and stated that
        it will conduct an ABC study “to determine the correct fees for each of the WCF
        services” and “will ensure that all appropriate costs are included.” Although the A
        Bureau agreed with the recommendation, the A Bureau noted in its general comments
        that it “strongly disagrees with the proposal to include rent in the cost center’s price
        structure” because the Bureau believes that it “will increase prices to a point where [its]
        services will no longer be competitive from a pricing perspective.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that the A Bureau has
        reassessed the fees for each of the SW Cost Center services to ensure that all costs,
        including rent, are covered and has made the results of the reassessment available to its
        customers. As OIG noted in this report, GAO guidance specifically identifies rent as a
        cost that should be included when determining full costs. In addition, GAO defines a
        WCF as “a self-supporting entity” that functions “entirely [emphasis added] from the
        fees charged for the services they provide consistent with their statutory authority.” If the
        increase in fees necessary to cover the Cost Center’s full costs, including rent, results in
        prices that are no longer competitive, the Bureau could consider other alternatives. For
        example, as OIG suggested, the Bureau could explore ways to reduce its other costs or, if
        reducing costs is not feasible and the Bureau must continue to use appropriated funds to
        cover some of the Cost Center’s costs, the Bureau should reconsider its designation of
        this service as a WCF.




21
  Kearney determined the percentage of SW Cost Center revenue attributable to other agencies each year and used
the estimated annual percent loss to calculate the amount underpaid by other agencies.

                                                  16
                                             UNCLASSIFIED
                                UNCLASSIFIED

Recommendation 2. OIG recommends that the Bureau of Administration ensure that the
formal organizational definition of the Secure Warehouses Cost Center and Freight
Forwarding Service Center aligns to the operational management of these Cost Centers.

Management Response: The A Bureau concurred with this recommendation and stated
that it “will separate the financial results of [the] SW Cost Center from the Freight
Forwarding Service Center.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the A Bureau has
separated the financial results of the SW Cost Center from the Freight Forwarding
Service Center in a way that reflects the intended operations of the two Cost Centers.

Recommendation 3. OIG recommends that the Bureau of Administration, Executive
Office, Working Capital Fund Division, in coordination with the Secure Warehouses
(SW) Cost Center, develop a policy that details how often the SW Cost Center fees will
be formally reassessed.

Management Response: The A Bureau agreed with this recommendation and stated that
it will conduct ABC studies “on a regular basis.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the A Bureau has
developed a policy that details how often the SW Cost Center fees will be formally
reassessed.

Recommendation 4. OIG recommends that the Bureau of Administration, Executive
Office, Working Capital Fund Division, in coordination with the Secure Warehouses
Cost Center, perform an analysis to determine appropriate fees for each of the services
provided to other agencies.

Management Response: The A Bureau agreed with this recommendation and stated that
it will “set appropriate fees for services provided to other agencies.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the A Bureau has
determined the appropriate fees for the services the SW Cost Center provides to other
agencies.

Recommendation 5. OIG recommends that the Bureau of Administration develop and
implement a procedure to ensure that transportation expenses are recorded to the same
Working Capital Fund Cost Center to which the related transportation revenues are
recorded.




                                     17
                                UNCLASSIFIED
                                UNCLASSIFIED

Management Response: The A Bureau agreed with this recommendation and stated that
it “will develop a process to show transportation revenue in the same cost center that is
incurring the charge.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the A Bureau has
implemented a procedure to record related transportation revenue and expenses to the
same Cost Center.

Recommendation 6. OIG recommends that the Bureau of Administration’s Secure
Warehouses Cost Center revise the methodology used to calculate the amount charged for
Extended Storage to ensure that all Extended Storage charges incurred are billed to
customers.

Management Response: The A Bureau agreed with this recommendation and stated that
it will “set appropriate fees for Extended Storage and will implement processes to bill
storage regularly.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the A Bureau has
implemented a methodology to ensure that all Extended Storage charges incurred are
billed.

Recommendation 7. OIG recommends that the Bureau of Administration’s Secure
Warehouses Cost Center design and implement a process to review transactions excluded
from automatic billing and ensure that all exclusions are properly documented.

Management Response: The A Bureau agreed with this recommendation and stated that
it “will implement a process to review transactions excluded from billing.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the A Bureau has
implemented a process to review and document transactions excluded from automatic
billing.

Recommendation 8. OIG recommends that the Bureau of Administration, Executive
Office, Working Capital Fund Division, in coordination with the Secure Warehouses
(SW) Cost Center, identify all SW Cost Center costs and implement a process to pay for
these costs using SW Cost Center revenue.

Management Response: The A Bureau agreed with this recommendation and stated that
it will “identify all SW Cost Center costs” and that appropriate costs “will be included in
the new [Cost Center] rates.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the A Bureau has

                                     18
                                UNCLASSIFIED
                                               UNCLASSIFIED

        identified all SW Cost Center costs and has a process to pay these costs, including rent as
        discussed in OIG’s Analysis of Recommendation 1, using SW Cost Center revenue.

Finding B. Information Technology Cost Center Collected More Fees than
Necessary To Sustain Operations
        The IT Cost Center collected fees in excess of the amount needed to cover the costs
required to sustain its operations which was not in compliance with the Principles of Federal
Appropriations Law. The total amount of IT Cost Center revenue from FY 2009, the year of the
Cost Center’s inception, through FY 2012 exceeded its expenses by approximately $26 million.
Revenue exceeded expenses, in part, because certain costs, totaling $2.8 million in FY 2012, that
should have been paid from the Cost Center’s revenue were paid using non-Cost Center funds.
Based on Kearney’s calculations, the fees collected by the IT Cost Center would have been
sufficient to cover these costs. In addition, Cost Center revenue included $1.5 million in
appropriated funds. According to IRM officials, they were aware of the excess funds and had
been working to identify the best course of action to address how the excess funds should be
used.

        Kearney also found that the IT Cost Center’s fee-setting methodology was not sufficient.
Specifically, the methodology did not consider the Cost Center’s retained funds, totaling
approximately $26 million at the end of FY 2012, or anticipate future changes to customer needs.
In addition, during FY 2009 through FY 2012, the IT Cost Center did not have an effective
methodology to determine the number of desktop computers in use by its serviced customers,
which was a key factor in determining the appropriate amount of the fee. Kearney also found
that the IT Cost Center had provided services to non-serviced bureaus and offices that were not
billed for the services, amounting to an estimated $10.8 million in uncollected revenue.

        Without an accurate record of all expenses and revenues, the IT Cost Center did not have
a clear understanding of its financial position and could not monitor whether or not it was
charging the correct fee. Kearney recalculated the fee, taking into consideration all operating
expenses, the excess retained funds, a reasonable growth rate for desktop computer services, and
lost revenue, and determined that the IT Cost Center charged approximately $350 more per
computer than was necessary to sustain Cost Center operations. 22 Based on the recalculated fee
amount, Kearney estimated that customers had been overcharged $18.2 million during FY 2011
to FY 2012. These funds could have been used by customers for other priorities. Further, the
$2.8 million paid using non-Cost Center funds could have been put to better use.

        In addition to the excessive fee amount, the IT Cost Center may not have charged its
customers correctly for the number of desktop computers that were serviced. Incorrect charges
could lead to the lack of customer confidence in the Cost Center billings as well as a lack of
customer satisfaction with Cost Center performance overall. Further, the Cost Center may have
paid more, or less, than warranted to the contractor operating the IT Help Desk since the
contractor cost was based on the total number of desktop computers.

22
  According to IRM officials, the fee amount was too high, but based on IRM’s calculations, officials believed that
that the fee amount should be decreased by approximately $90 per desktop computer.

                                                    19
                                               UNCLASSIFIED
                                               UNCLASSIFIED


Fees Collected Have Exceeded Cost Center Expenses

        The FAH 23 states that the charges for WCF services “must be sufficient to cover all
operating and overhead expenses, including the replacement of capital assets, required to sustain
activity operations.” The Principles of Federal Appropriations Law 24 further states that
revolving funds “are intended to operate on a breakeven basis or reasonably close to it, over the
long term” and that “the fund should not augment its working capital by retaining funds in excess
of what it needs to cover its costs.”

        The IT Cost Center had collected more fees than needed to sustain its operations. Since
its inception in FY 2009, IT Cost Center revenue had exceeded expenses in three of four years,
as shown in Table 10.

           Table 10. IT Cost Center Financial Results for FY 2009 – FY 2012
                                                                               Profit/(Loss)
                                     Revenue            Expenses          Amount
               Fiscal Year         (in millions)      (in millions)     (in millions)     Percent
                  2009                      $26.3             $19.3                $7.0         26
                  2010                       45.1               32.5               12.6         28
                  2011                       47.8               40.3                7.5         16
                  2012                       48.2               49.6              (1.3)         (3)
                  Total                    $167.4           $141.7               $25.8          15
           Source: Prepared by Kearney based upon GFMS Data Warehouse General Ledger Account Activity
           Extract report.
           Note: Numbers in this table may not add because of rounding.

        FY 2012 was the only year in which revenue did not exceed expenses. This occurred
because the Cost Center incurred approximately $9.7 million in costs to replace its server
equipment in FY 2012. According to IT Cost Center officials, server replacement occurs once
every 4 years. Overall, even with the server replacement costs, the IT Cost Center had retained
funds in excess of what it needed to cover its costs. As of September 30, 2012, the IT Cost
Center had $25.8 million in retained funds, which represents a profit margin of approximately 15
percent since its inception.

        According to IRM officials, they were aware of some excess funds within the Cost
Center but the officials did not agree that the entire $25.8 million in retained funds should be
considered excess. Specifically, IRM officials stated that the funds available at the end of
FY 2012 were needed to cover approximately $20.6 million in obligations, 25 the majority of
which, $19.2 million, were related to the contract for the operation of the Help Desk. For the
remaining balance of $5.2 million, IRM officials had been working to identify the best course of
action to use these funds. For instance, the Cost Center had already decreased the fee amount in
FY 2011. IRM officials had not made a decision on how to address the excess funds, but the
officials stated that their preference was to determine whether IT Cost Center customers

23
   4 FAH-3 H-113.4-3, “Working Capital Fund.”
24
   Principles of Federal Appropriations Law, 3rd ed., Vol. III (GAO-08-978SP, Sept. 2008).
25
   Obligations are orders, contracts, and other binding agreements for which the goods and services ordered have not
yet been received. Because these goods and services have not yet been received, the expense would not be recorded.

                                                    20
                                               UNCLASSIFIED
                                                  UNCLASSIFIED

preferred decreased fee amounts or increased services. While Kearney recognizes the existence
of the open obligations, these costs will be offset with future collections from customers. WCF
cost centers have the ability to record obligations based upon estimated future collections;
therefore, the retained funds do not need to be maintained to cover future expenses and the Cost
Center should consider the entire $25.8 million when identifying a resolution for the retained
funds issue.

Some Information Technology Cost Center Expenses Were Paid With Non-Cost Center
Funds

        The IT Cost Center has a responsibility to collect fees “to cover all operating costs
including the replacement of capital assets required to sustain activity operations. Charges must
also include overhead costs, costs which are not directly related to a position or production of a
service but which indirectly contribute to the service.” 26 GAO guidance states that agencies
should include all direct and indirect costs when determining full cost, including but not limited
to personnel costs, overhead, utilities, rents, management and supervisory costs, and research. 27

        IT Cost Center revenue consistently exceeded expenses in part because the IT Cost
Center did not pay for all of its operating expenses from FY 2009 through FY 2012. In addition,
the IT Cost Center was given $1.5 million in appropriated funds during FY 2011 that was not
earned. Based on Kearney’s calculations, if the cost center properly accounted for all expenses
and revenues, the fees collected by the IT Cost Center would have been sufficient to cover all
costs of operations without the assistance of appropriated funding.

       For FY 2012, Kearney estimated that at least $2.8 million in expenses related to the IT
Cost Center were paid from sources other than Cost Center revenue, as shown in Table 11.

Table 11. Estimation of IT Cost Center Expenses Paid Using Other Funds in FY 2012
                                                                                                             Amount
             Description of Expenses                                Funding Source
                                                                                                           (in millions)
     Remedy – Staff and System Maintenance                       Appropriated Funds                                  $1.1
     Rent and Utilities                                          Appropriated Funds                                   1.3
     Payroll Salaries                                            Appropriated Funds                                   0.3
                                                         Fees from Other WCF Cost Centers
     Other
                                                               and Appropriated Funds                                0.1
     Total                                                                                                          $2.8
Source: Prepared by Kearney based on review of operating expense categories necessary for Cost Center operations.

       The IT Cost Center is a primary user of the Remedy system, which tracks IT service
requests, and should fund approximately $2.5 million in its operating costs annually. 28 However,
in FY 2012, the IT Cost Center provided $1.4 million to IRM for Remedy costs. Appropriated
funds covered the remaining $1.1 million of Remedy costs that were allocable to the IT Cost
Center. The IT Cost Center did not reimburse the Department for rent and utilities costs, which

26
   6 FAH-5 H-802.2, “WCF Characteristics and Benefits.”
27
   Federal User Fees: A Design Guide (GAO-08-386SP, May 2008).
28
   Based upon discussions with IRM personnel, other offices use Remedy to track IT tickets for non-customers and
for out-of-scope services.

                                                       21
                                                  UNCLASSIFIED
                                               UNCLASSIFIED

Kearney estimated to total approximately $1.3 million annually. In addition, three IT Cost
Center employees were only partially funded using Cost Center revenue. Kearney estimated that
the portion of these employees’ salaries that was paid using appropriated funds in FY 2012
totaled approximately $300,000. Further, A/EX/WCF performed a number of management and
administrative roles for the IT Cost Center, such as recording obligations in GFMS. These costs
were covered by excess revenues from other WCF cost centers. Kearney estimated that the
support provided to the IT Cost Center by A/EX/WCF would cost approximately $100,000
annually. All of these costs should have been funded using IT Cost Center revenue.

        In addition to not covering all operating costs, IRM provided $1.5 million to the IT Cost
Center in FY 2011. According to Cost Center personnel, the funds were not in exchange for
goods or services provided. Rather, the funds were provided to the Cost Center to purchase 150
Citrix software licenses 29 on behalf of customer bureaus. However, 150 Citrix licenses would
only cost approximately $80,000—not $1.5 million. In addition, according to the IT Cost Center
Master Service Level Agreement, purchasing software is not a service provided by the Cost
Center. If the Cost Center were to purchase licenses on behalf of its customers, the customers
would reimburse the IT Cost Center for the costs of the licenses. Receiving appropriated funding
from IRM did not represent a buyer-seller relationship as outlined in the FAH 30 and the U.S.
Code, 31 and those funds should be returned to IRM.

Fee-Setting Methodology Was Not Effective

       Another factor contributing to the IT Cost Center collecting fees in excess of the amounts
needed to support operations (including the replacement of capital assets) was that the Cost
Center did not consider all relevant factors when setting the fee amount. According to GAO, 32
methodologies for establishing rates should be “transparent and equitable” and “allow agencies
to ensure that rates charged recover agencies’ actual costs and reflect customers’ service usage.”

        During the creation of the IT Cost Center, from FY 2007 to FY 2008, the IT
Consolidation Project Management Office determined that customers would be charged a flat
rate of $1,883 for each desktop computer in use. This decision was based on an estimate of some
operating costs and expected future capital needs. OIG reported that the initial fee amount was
based on “limited data” and “the cost per desktop calculation was unclear, and that the costs had
fluctuated throughout the consolidation schedule.” 33 In response to the OIG audit findings, the
amount of excess funds collected, and customer pressure, the IT Cost Center recalculated the fee
and reduced the amount charged for each desktop computer to $1,790 beginning in FY 2011.
The IT Cost Center’s revised fee was calculated as an average rate that would be charged for a
4-year period (FY 2011 to FY 2014) to keep fluctuations in fees to a minimum and to better plan
for server replacement costs. To determine the revised fee amount, the Cost Center estimated

29
   Citrix is used by certain ClassNet desktops, known as Thin Client desktops, and unclassified mobile devices to
access the Department’s remote servers via Internet connections. This enables employees to telework and access
Department emails, computer files, and the Department’s Intranet.
30
   4 FAH-3 H-113.4-3, “Working Capital Fund.”
31
   22 U.S.C § 2684, “Capital Fund for Department of State.”
32
   Intragovernmental Revolving Funds (GAO-12-56, Nov. 2012).
33
   Evaluation of the Information Technology Consolidation Project (AUD/IT-10-11, Feb. 2010).

                                                    22
                                               UNCLASSIFIED
                                            UNCLASSIFIED

certain costs of operations for FY 2011 to FY 2014 and applied the average costs to the
anticipated number of desktop computers that would be billed each year.

        The fee-setting methodology did not include the funds retained from excess collections in
prior years, and the IT Cost Center did not sufficiently consider the future growth of customer
needs. In addition, the Cost Center did not have an effective method to determine the number of
desktop computers serviced, which is a key element to determine the correct per desktop
computer fee amount.

        Retained Funds Were Not Considered

        According to GAO, 34 a fee-setting process must consider reserve balances (retained
funds). Kearney reviewed the methodology used to reassess the IT Cost Center rate and noted
that the Cost Center did not consider retained funds in the calculation. The Cost Center had
retained funds of $19.6 million at the end of FY 2010, which should have been used to offset
estimated future Cost Center expenses during the FY 2011 fee-setting calculation. By not
including the $19.6 million balance in the calculation, the Cost Center did not set a rate that
would bring the Cost Center to a breakeven position, as is required. Because the retained funds
were not considered, the fee was too high, and the amount of retained funds had increased to
almost $26 million as of the end of FY 2012.

        Expected Growth Rate Was Not Considered

        According to GAO, 35 fees “should also be set and adjusted to cover the intended share of
costs over time,” which means agencies must project and consider future costs or service
increases. To calculate the 4-year average rate, certain operational costs were estimated for
FY 2011 and projected over FY 2012 to FY 2014 using a standard rate of increase. Although the
fee-setting methodology considered an increase in costs to cover inflation, Kearney found that
the IT Cost Center had not sufficiently estimated the increase in the number of desktop
computers that customers would require services for during the 4-year period, which would
increase both costs and revenue.

        The Department based its reassessment of the fee on the assumption that it would be
providing services to 24,963 desktop computers each year during the 4-year period. IT Cost
Center officials were unable to provide information on how the number of desktop computers
was determined; however, it exceeded the number of desktop computers billed in FY 2010, when
the fee was calculated. Since FY 2010, the average annual growth rate in the number of desktop
computers billed by the IT Cost Center was approximately 5.5 percent, as shown in Table 12.




34
   Interagency Contracting: Improvements Needed in Setting Fee Rates for Selected Programs (GAO-11-784, Sept.
2011).
35
   Federal User Fees: A Design Guide (GAO-08-386SP, May 2008).

                                                 23
                                            UNCLASSIFIED
                                                   UNCLASSIFIED


          Table 12. Growth in Serviced Desktop Computers from FY 2010 – FY 2012
                                     Number of Billed          Percent of
                Fiscal Year
                                    Desktop Computers      Annual Growth Rate
                        2010                                         24,084                   --
                        2011                                         25,386                  5.4
                        2012                                         26,782                  5.5
          Source: Prepared by Kearney based on the IT Cost Center Billing Trackers report.

        Based on an average annual growth rate of 5.5 percent, the estimated number of desktop
computers serviced would be 28,255 in FY 2013 and 29,809 in FY 2014, which would result in
an average of 27,558 serviced desktop computers for the 4-year period from FY 2011 through
2014. Based on this calculation, the IT Cost Center underestimated its customer growth for the
4-year period, which would impact both the amount of expenses and revenue that should have
been considered. In addition to normal customer growth, IT Cost Center officials indicated that
they were aware of a plan to significantly expand the number of ClassNet computers that would
be serviced during the 4-year period.

          Methods To Determine Desktop Computer Counts Were Not Effective

        According to GAO, 36 the rate charged by a WCF should “reflect the customers’ service
usage.” However, the IT Cost Center did not have an effective method to accurately determine
the number of desktop computers in use by its customers. The IT Cost Center used the number
of in-service desktop computers as the method to allocate the costs of providing services to its
customers. Kearney concluded that this was a reasonable cost allocation methodology since a
significant portion of the services provided to customers were maintenance and support of the
networks upon which the desktop computers resided. Additionally, while some services could
be directly traced to a specific customer, such as IT Help Desk services, the number and variety
of these services would make determining a per-service rate inefficient. Since the number of
desktop computers was the only method used to recoup costs, the number must be accurate to
determine an effective and equitable fee for customers.

      The IT Cost Center used a variety of methods to determine the number of desktop
computers it serviced for each bureau. The determination of which method to use depended on
whether IRM or the customer “owned” the desktop computers and the type of desktop computer.
The methods used by the IT Cost Center are listed in Table 13.




36
     Intragovernmental Revolving Funds (GAO-12-56, Nov. 2012).

                                                        24
                                                   UNCLASSIFIED
                                                  UNCLASSIFIED


Table 13. IT Cost Center Methodology Used to Determine Number of Desktop Computers

                                  Desktop Computer                       Method of Determining Desktop
      Asset Owner
                                        Type                                   Computer Count

                                        OpenNet                       All active desktop computers per ILMS.
                                  ClassNet Thick Client                     Active Directory information.
  IRM (IT Cost Center)
                                                                    Desktop computers that have been logged into
                                   ClassNet Thin Client
                                                                     within the last 12 weeks according to Citrix.
                                        OpenNet                                    iPost information.
                                  ClassNet Thick Client                     Active Directory information.
         Customer
                                                                    Desktop computers that have been logged into
                                   ClassNet Thin Client
                                                                     within the last 12 weeks according to Citrix.
Source: Prepared by Kearney based on meetings with IT Cost Center officials.

        For unclassified desktop computers that were owned by IRM, the IT Cost Center used
information from ILMS. The IT Cost Center performed a physical inventory of the desktop
computers and certified that the information in ILMS was accurate. For unclassified desktop
computers owned by customers, the IT Cost Center used information from iPost, which is a
Web-based tool that scans and reports on all active hardware attached to the network. The IT
Cost Center did not use ILMS data for these computers because the Cost Center did not have
access to the ILMS reports for other bureaus. In addition, the Cost Center was not sure that the
data in ILMS for customer-owned computers was reliable because the IT Cost Center was not
involved in the annual inventory process for these computers.

        For classified Thick Client computers, the IT Cost Center used information from Active
Directory, which is an application that tracks user accounts on networks. For classified Thin
Client computers, the IT Cost Center used Citrix, which is an application that tracks user log-ins
and can report on the number of users that have accessed the network within a certain period of
time. Because Thin Client computers were not constantly attached to the network, the IT Cost
Center used data on computer usage over a longer period of time—12 weeks.

        To validate the IT Cost Center’s methodologies, Kearney selected a statistical sample of
45 customer billings from FY 2009 to FY 2012 to test. (Information on the sampling
methodology is provided in the section “Detailed Sampling Methodology” in Appendix A.) The
IT Cost Center was unable to substantiate the number of desktop computers used to determine
the total amount charged for any of the selected bills. Kearney attempted to independently
validate the amount billed by obtaining a report of all in-service desktop computers from ILMS.
However, Kearney was unable to align the computer owners in the ILMS report to the customers
being billed. Kearney then requested reports from iPost and Active Directory for FY 2009
through FY 2012; however, iPost and Active Directory are tools used for monitoring current
network data and do not have historical reporting capabilities.

       Kearney then ascertained that in FY 2012 the IT Cost Center implemented a process in
which it provided its count of desktop computers to each customer and asked that the customer
confirm the count prior to billing. Since 13 of the original sample of 45 customer bills were
from FY 2012, Kearney was able to use these samples to test the customer validation process.

                                                       25
                                                  UNCLASSIFIED
                                               UNCLASSIFIED

Of the 13 customers tested, five customers agreed with the IT Cost Center count, five customers
disagreed with the IT Cost Center count, and three customers did not respond to the Cost
Center’s request.

        For instance, the IT Cost Center originally reported that the Diplomatic
Telecommunications Service Program Office had a total of 906 in-service desktop computers.
However, the Office responded that the number of in-service computers was much less—604—
based on an iPost report. The IT Cost Center performed an inventory of desktop computers for
that office and determined that the actual number of desktop computers was 614, almost 300 less
than the IT Cost Center’s original count. According to Diplomatic Telecommunications Service
Program Office officials, the IT Cost Center’s method for obtaining desktop computer counts
was not transparent and, even after the completion of the physical inventory, the IT Cost Center
did not provide a detailed listing of desktop computers to the Office. The FY 2012 count
difference for this Office is provided in Table 14.

        Table 14. Number of Diplomatic Telecommunications Service Program Office
        Desktop Computers in FY 2012
                                                                                         Total Number
                               Source of Computer Count
                                                                                         of Computers
         IT Cost Center – Original Number                                                       906
         IT Cost Center – Final Number                                                          614
         Difference                                                                             292
        Source: Kearney prepared based on emails provided by the IT Cost Center and discussions with Diplomatic
        Telecommunications Service Program Office personnel.

        In another instance in which a customer disagreed with the count proposed by the IT Cost
Center, the IT Cost Center used the information provided by the customer without validating the
information. The Bureau of Overseas Buildings Operations, the third largest IT Cost Center
customer, reported that it had approximately 50 more desktop computers than identified by the
IT Cost Center, as shown in Table 15. The IT Cost Center used the number of computers
proposed by the Bureau of Overseas Buildings Operations without performing work to ensure
that the number was correct.

        Table 15. Bureau of Overseas Building Operations FY 2012 Desktop Counts
                                                                                         Total Number
                               Source of Computer Count
                                                                                         of Computers
          IT Cost Center – Original Number                                                     1,396
          Bureau of Overseas Buildings Operations – Proposed Number                            1,443
          Difference                                                                             47
        Source: Kearney prepared based on emails provided by the IT Cost Center.

       Kearney also identified one instance in which a customer’s desktop computer counts had
not changed over a 3-year period. When the Bureau of Political-Military Affairs became a
customer of the IT Cost Center in FY 2009, it was charged for 576 desktop computers. The
Bureau was still being charged for the same number of computers in FY 2012. According to
Bureau officials, the IT Cost Center’s count of the Bureau’s desktop computers was incorrect for
FY 2010. The IT Cost Center agreed to maintain the FY 2009 level of service until the asset


                                                    26
                                               UNCLASSIFIED
                                                       UNCLASSIFIED

   counting methodology was improved. In FY 2013, after the completion of a physical inventory,
   the Bureau of Political-Military Affairs was billed for 636 desktops.

           Because the IT Cost Center was unable to support the number of desktop computers
   charged for each customer and because other supporting data was not available, Kearney could
   not determine the full extent of inaccurate data. However, based on the specific examples of
   inaccurate computer counts, Kearney concluded that the methodologies used by the IT Cost
   Center to determine the number of computers during FY 2009 through FY 2012 were not
   effective. Kearney found that the IT Cost Center had modified its process to determine and
   communicate the number of desktop computers during FY 2013. Specifically, the IT Cost
   Center had provided detailed information on the specific desktop computers included in the fee
   to each customer. In addition, according to IRM officials, IT Cost Center staff was performing
   additional onsite validation of the number of desktop computers at customer locations, which
   would improve the reliability of the data.

   Services Were Provided to Bureaus that Were Not Charged

            The IT Cost Center had a responsibility to collect “payments…for supplies and services
   at rates which will approximate the expense of operations.” 37 However, the IT Cost Center
   provided IT Help Desk services to personnel from bureaus and offices that were not Cost Center
   customers, and the Cost Center did not charge the non-customer bureaus and offices for these
   services. Kearney estimated that the IT Cost Center lost approximately $10.8 million in potential
   revenue, as shown in Table 16.

Table 16. Remedy Tickets Submitted by Customers and Non-Customers and Related
Uncollected Revenue
                                                         Tickets without an
                                                                                         Non-Customer
                            Customer Tickets                 Identified                                             Estimated
                                                                                            Tickets
 Fiscal       Total                                        Organization                                            Uncollected
 Year        Tickets                                                                                                 Revenue
                                        Percent                        Percent                      Percent        (in millions)
                         Number                         Number                        Number
                                        of Total                       of Total                     of Total

  2009        103,718       89,415                86        5,311                 5       8,992                9              $3.1
  2010        210,193     201,028                 96             0                0       9,165                4               2.6
  2011        248,930     243,186                 98           26                 0       5,718                2               2.1
  2012        243,200     237,050                 97             0                0       6,150                3               3.0
 Total        806,041     770,679                96         5,337                 1      30,025                4             $10.8
Source: Kearney prepared based on review of Remedy tickets related to the IT Cost Center serviced from FY 2009 to FY 2012.

          In some cases, certain bureaus or offices that received services as a non-customer became
   IT Cost Center customers in later years. However, several bureaus or offices that submitted IT
   Help Desk tickets did not become IT Cost Center customers. For example, one bureau submitted
   over 13,000 Remedy tickets during FY 2009 to FY 2012 despite not being a customer. During
   FY 2009 through FY 2012, IT Cost Center management did not monitor the use of the IT Help

   37
        22 U.S.C § 2684, “Capital Fund for Department of State.”

                                                            27
                                                       UNCLASSIFIED
                                              UNCLASSIFIED

Desk services by non-customers to determine whether ad-hoc fees for assistance should be
charged. According to IRM officials, during FY 2013 the IT Cost Center began working with
non-customers to implement Service Level Agreements that included fees for ad hoc IT Cost
Center services. The Cost Center also had three employees who were paid with appropriated
funding to handle non-customer requests; however, there were no processes in place to assign all
non-customer requests to these individuals or to prevent these individuals from working on
customer requests.

Customer Charges Were Excessive and Funds Could Have Been Put to Better Use

        Although the WCF financial reports showed that the IT Cost Center had generally been
operating at a profit since its inception in FY 2009, those reports do not reflect a complete
picture of the IT Cost Center’s financial results. As a result, the Cost Center did not have a true
understanding of its financial position and could not establish fees in a manner that covered, but
did not greatly exceed, the total cost of Cost Center operations. Kearney estimated the IT Cost
Center’s adjusted profits or losses for FY 2009 to FY 2012, taking into consideration the impact
of the unpaid expenses, 38 the transfer of $1.5 million in appropriated funds, and the lost revenue
because it provided services to non-serviced bureaus. The IT Cost Center continued to operate at
an overall profit for the periods covered, as shown in Table 17. Additionally, by recording
revenue for amounts that are not earned by providing goods or services to customers, the Cost
Center risks non-compliance with Federal regulations, such as the Antideficiency Act and
appropriations law.

       Table 17. IT Cost Center Adjusted Financial Results – FY 2009 to FY 2012
                                                                           Adjusted Profit/(Loss)
                                                                         Adjusted
          Fiscal     Adjusted Revenue Adjusted Expense                   Amount          Adjusted
          Year         (in millions)    (in millions)                  (in millions)       Percent
           2009                     $29.4                   $21.9                  $7.5                    26
           2010                      47.7                    35.2                  12.5                    26
           2011                      48.4                    43.0                   5.4                    11
           2012                      51.2                    52.3                 (1.1)                   (2)
           Total                   $176.7                  $152.5                $24.3                     14
       Source: Prepared by Kearney based on GFMS Data Warehouse General Ledger Account Activity Extract
       report and an analysis of audit results.
       Note: Numbers in this table may not add because of rounding.

       Kearney concluded that the Cost Center was potentially overcharging its customers.
Kearney independently recalculated the fee amount by considering all expenses that should have
been included in the fee-setting process, as well as the retained funds, the actual desktop
computer count used for billings in FY 2011 and FY 2012, a reasonable growth rate for desktop
computers for FY 2013 and FY 2014, and unbilled revenue. Based upon this analysis, Kearney
determined that the Cost Center fee would be $1,442 per desktop computer—approximately $350


38
  Kearney calculated the impact of expenses paid by non-Cost Center funds by multiplying the amount of those
expenses identified for FY 2012, $2.8 million, by U.S. Department of Labor's Consumer Price Index information.
In total, Kearney estimated that non-Cost Center funds were used to pay $10.8 million in Cost Center expenses for
FY 2009 to FY 2012.

                                                   28
                                              UNCLASSIFIED
                                              UNCLASSIFIED

less per desktop computer than the amount that was being charged. 39 Although IRM officials
stated that they agreed that the fee amount was too high for the current services provided, IRM
has calculated the overage to be approximately $90 per computer, rather than the $350 calculated
by Kearney.

        In effect, to decrease the $25.8 million in available retained funds, the IT Cost Center
would need to operate at a loss for several years. Based on the revised fee amount of $1,442 per
desktop computer, Kearney calculated that the IT Cost Center had collected approximately $8.8
million in extra revenue in FY 2011 and approximately $9.3 million in extra revenue in FY 2012,
totaling $18.2 million for these 2 years. The extra revenue exceeded the amount of the adjusted
profit or loss for FY 2012 and FY 2011, as shown in Table 17, since the amounts would be offset
by the available retained funds. One large bureau with 4,921 desktop computers in FY 2011 and
4,935 in FY 2012 may have been overcharged a total of $3.4 million for FY 2011 and FY 2012.
Another large bureau with 1,336 desktop computers in FY 2011 and 1,443 in FY 2012 may have
been overcharged a total of approximately $970,000 for the same 2-year period. As a result,
customers did not have these funds available to use for other programmatic needs. In addition,
the $2.8 million in expenses paid with non-Cost Center funds could have also been put to better
use.

        Rather than reduce the fee amount, IT Cost Center officials stated that it may use the
excess retained funds to cover other IT-related costs that have been paid from appropriated funds
in the past, such as the costs of operating SharePoint. These services were not included in the
Service Level Agreement. In addition, the services being considered are used by all Department
employees, not just the customers of the IT Cost Center. Therefore, using excess funds collected
from customers to cover the costs of operating SharePoint would not be appropriate.

        In addition to an excessive fee amount, the IT Cost Center might also have over- or
undercharged its customers by billing for an inaccurate number of desktop computers. The
insufficient process to determine the number of desktop computers could have also led to either
over- or underpayment of fees to the contractor that operates the IT Help Desk, since a
significant portion of payments to the contractor were based on the number of computers being
serviced. In addition, the IT Help Desk contract provided for certain discounts if more than
30,000 desktop computers were serviced. Without a sufficient method to count desktop
computers, the IT Cost Center and the contractor could not accurately estimate the value of the
contract and ultimately the correct price per desktop computer. Because of the lack of
supporting information, Kearney was unable to determine the actual impact of the incorrect
computer counts to either specific customers or to the Department as a whole. Additionally,
customers do not have a detailed record of their current or historical billings, and there is no
audit trail for both the Cost Center and the customer to discuss past transactions.

       Overall, the deficiencies noted in the fee-setting process could lead to the lack of
customer confidence in the Cost Center billings as well as a lack of customer satisfaction with
the Cost Center’s performance.

39
  Kearney calculated this amount using the assumption that the retained funds would be distributed over a 4-year
period, which is the IT Cost Center’s schedule for updating the fee amount. At the end of the 4-year period, the
retained funds should be significantly decreased, and the IT Cost Center would need to reassess the fee amount.

                                                   29
                                              UNCLASSIFIED
                               UNCLASSIFIED



Recommendation 9. OIG recommends that the Bureau of Administration, Executive
Office, Working Capital Fund Division, in coordination with the Bureau of Information
Resource Management’s Information Technology (IT) Cost Center, identify all IT Cost
Center operating costs and implement a process to pay for these costs using IT Cost
Center revenue.

Management Response: The A Bureau concurred with the recommendation and stated
that it will “work with IRM to review the IT Cost Center operating costs on an annual
basis.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the A Bureau has
identified all IT Cost Center costs and has a process to pay these costs using IT Cost
Center revenue.

Recommendation 10. OIG recommends that the Bureau of Administration, Executive
Office, Working Capital Fund Division, align the funds received by the Information
Technology Cost Center from the Bureau of Information Resource Management (IRM)
for Citrix licenses in FY 2011 to specific expenditures and return unspent funds to IRM.

Management Response: The A Bureau concurred with this recommendation and stated
that, at IRM’s request, the A Bureau has already instructed that “the amount of $307,097
be returned to IRM.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation supporting the expenditures
from the $1.5 million in appropriated funds provided by IRM to the IT Cost Center and
the return of the unspent funds to IRM.

Recommendation 11. OIG recommends that the Bureau of Administration, Executive
Office, Working Capital Fund Division, in coordination with the Bureau of Information
Resource Management’s Information Technology Cost Center, recalculate the fee
amount. The methodology used when recalculating the fee should consider all relevant
factors, including all expenses that should be supported by Cost Center revenue, retained
funds in excess of scheduled capital needs, and a reasonable growth rate of the desktop
computers. The results of the reassessment should be made available to customers.

Management Response: The A Bureau concurred with this recommendation and stated
that IRM is currently recalculating the fee. The A Bureau will “review IRM’s budget
submission to ensure new fees reflect all relevant expenses.” In its general comments,
IRM noted that it “needs to retain 10 percent of annual invoices budget (roughly $5M) in
risk reserve as carryover to ensure the smooth provision of service to IT Cost Center
customers.” In addition, IRM stated that it has developed a plan to fund “costs that had
not previously been covered, including full Remedy system annual costs and equipment
refresh and modernization.”

                                    30
                               UNCLASSIFIED
                                 UNCLASSIFIED



OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the IT Cost Center
fee has been recalculated; the recalculation considered all relevant factors; and the results
of the recalculation have been made available to IT Cost Center customers. OIG concurs
that retaining a reserve to cover the costs of periodic equipment refresh would be
appropriate. However, this reserve should be included in IRM’s fee recalculation, as
should the current retained earnings of $25.8 million. Additionally, IRM should ensure
that only costs associated with providing services to IT Cost Center customers are paid
with fees collected from customers.

Recommendation 12. OIG recommends that the Bureau of Information Resource
Management’s Information Technology (IT) Cost Center, determine the most efficient
and effective method for determining desktop computer counts for billing purposes. If a
reliable method to produce desktop computer counts cannot be determined, the IT Cost
Center should establish a different process to allocate IT Cost Center costs that can be
supported.

Management Response: IRM concurred with this recommendation and stated that it is
working with the A Bureau to “implement a single automated solution” prior to its annual
invoicing cycle in FY 2014.

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the IT Cost Center
has an effective method for determining desktop computer counts.

Recommendation 13. OIG recommends that the Bureau of Information Resource
Management’s Information Technology Cost Center update the Service Level Agreement
to outline the billing process by defining the methods of counting desktop computers and
the sources that will be used by the Cost Center as well as defining the methods of
recourse for customers that disagree with the Cost Center’s desktop computer count.

Management Response: IRM concurred and stated that it “will update the Service
Level Agreement in early FY14.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the Service Level
Agreement has been updated to include a description of the method used to count desktop
computers and the method of recourse for customers disagreeing with the count.

Recommendation 14. OIG recommends that the Bureau of Information Resource
Management’s Information Technology Cost Center provide supporting documentation
to customers prior to the billing process, including the total number of desktop computers
being billed, the source of the desktop computer count, and a detailed listing of the
desktop computers included in the bill.



                                      31
                                 UNCLASSIFIED
                                UNCLASSIFIED

Management Response: IRM stated that it “began the process of providing
documentation to its customers prior to the billing process in FY13 and will continue this
process going forward.”

OIG Analysis: OIG considers the recommendation closed based on IRM’s actions to
provide documentation to its customers prior to the billing process in FY 2013 as well as
IRM’s plans to implement “a single automated” method for determining desktop
computer counts for billing purposes in response to Recommendation 12.

Recommendation 15. OIG recommends that the Bureau of Information Resource
Management’s Information Technology Cost Center develop a process to ensure that all
non-customers are billed for Help Desk services on an ad-hoc basis or that non-customers
do not receive Help Desk services.

Management Response: IRM concurred with this recommendation and stated that it has
a team “working with the Help Desk to identify and document all processes and review
all requests and services.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the IT Cost Center
has a process to bill bureaus and offices that are not IT Cost Center customers for the
Help Desk services these bureaus and offices receive.




                                     32
                                UNCLASSIFIED
                                        UNCLASSIFIED



                                 List of Recommendations
Recommendation 1. OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division (A/EX/WCF), in coordination with the Secure Warehouses (SW)
Cost Center, reassess the fee amount for each of the services provided to ensure that all Cost
Center costs are covered. If officials determine that the new fees, which cover all required costs,
would be too high to charge to customers, then A/EX/WCF should identify cost savings that
would reduce overall expenses or reassess the decision to include the SW Cost Center as a
Working Capital Fund function. The results of the reassessment should be made available to
customers.

Recommendation 2. OIG recommends that the Bureau of Administration ensure that the formal
organizational definition of the Secure Warehouses Cost Center and Freight Forwarding Service
Center aligns to the operational management of these Cost Centers.

Recommendation 3. OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Secure Warehouses (SW) Cost Center,
develop a policy that details how often the SW Cost Center fees will be formally reassessed.

Recommendation 4. OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Secure Warehouses Cost Center,
perform an analysis to determine appropriate fees for each of the services provided to other
agencies.

Recommendation 5. OIG recommends that the Bureau of Administration develop and
implement a procedure to ensure that transportation expenses are recorded to the same Working
Capital Fund Cost Center to which the related transportation revenues are recorded.

Recommendation 6. OIG recommends that the Bureau of Administration’s Secure Warehouses
Cost Center revise the methodology used to calculate the amount charged for Extended Storage
to ensure that all Extended Storage charges incurred are billed to customers.

Recommendation 7. OIG recommends that the Bureau of Administration’s Secure Warehouses
Cost Center design and implement a process to review transactions excluded from automatic
billing and ensure that all exclusions are properly documented.

Recommendation 8. OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Secure Warehouses (SW) Cost Center,
identify all SW Cost Center costs and implement a process to pay for these costs using SW Cost
Center revenue.

Recommendation 9. OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Bureau of Information Resource
Management’s Information Technology (IT) Cost Center, identify all IT Cost Center operating
costs and implement a process to pay for these costs using IT Cost Center revenue.

                                             33
                                        UNCLASSIFIED
                                       UNCLASSIFIED



Recommendation 10. OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, align the funds received by the Information Technology Cost
Center from the Bureau of Information Resource Management (IRM) for Citrix licenses in FY
2011 to specific expenditures and return unspent funds to IRM.

Recommendation 11. OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Bureau of Information Resource
Management’s Information Technology Cost Center, recalculate the fee amount. The
methodology used when recalculating the fee should consider all relevant factors, including all
expenses that should be supported by Cost Center revenue, retained funds in excess of scheduled
capital needs, and a reasonable growth rate of the desktop computers. The results of the
reassessment should be made available to customers.

Recommendation 12. OIG recommends that the Bureau of Information Resource
Management’s Information Technology (IT) Cost Center, determine the most efficient and
effective method for determining desktop computer counts for billing purposes. If a reliable
method to produce desktop computer counts cannot be determined, the IT Cost Center should
establish a different process to allocate IT Cost Center costs that can be supported.

Recommendation 13. OIG recommends that the Bureau of Information Resource
Management’s Information Technology Cost Center update the Service Level Agreement to
outline the billing process by defining the methods of counting desktop computers and the
sources that will be used by the Cost Center as well as defining the methods of recourse for
customers that disagree with the Cost Center’s desktop computer count.

Recommendation 14. OIG recommends that the Bureau of Information Resource
Management’s Information Technology Cost Center provide supporting documentation to
customers prior to the billing process, including the total number of desktop computers being
billed, the source of the desktop computer count, and a detailed listing of the desktop computers
included in the bill.

Recommendation 15. OIG recommends that the Bureau of Information Resource
Management’s Information Technology Cost Center develop a process to ensure that all non-
customers are billed for Help Desk services on an ad-hoc basis or that non-customers do not
receive Help Desk services.




                                            34
                                       UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                    Appendix A
                                 Scope and Methodology
       The objective of this audit was to determine whether the fees collected for the Working
Capital Fund’s (WCF) Secure Warehouses (SW) and Information Technology (IT) Cost Centers
were sufficient to cover all costs required to sustain operations for those activities. In
consideration of the WCF’s mandate to be a not-for-profit revolving fund, the term sufficient is
intended to mean effectively achieving a break-even position. As such, insolvent operations or
excess profits were not sufficient results. An external audit firm, Kearney & Company, P.C.
(Kearney), acting on behalf of the Office of Inspector General (OIG), performed this audit.

        Kearney conducted fieldwork for this performance audit from December 2012 to April
2013 at the Bureau of Administration, Executive Office, Working Capital Fund Division.
Kearney also performed work at the IT Cost Center, which is part of the Bureau of Information
Resource Management, and the SW Cost Center, which is part of the Bureau of Administration.
Kearney planned and performed this performance audit in accordance with requirements in the
Government Accountability Office’s Government Auditing Standards: 2011 Revision. Those
standards require that Kearney plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for the findings and conclusions based on the audit
objectives. Kearney believes that the evidence obtained provides a reasonable basis for the
findings and conclusions based on the audit objectives.

        To obtain background information for this audit, Kearney researched and reviewed the
Department’s Foreign Affairs Handbook, the U.S. Code, Federal appropriations law, prior OIG
and Government Accountability Office reports, and information available on the Department’s
Intranet. Kearney obtained the Washington Logistics Center Activity Based Costing
Deliverable, issued in May 2005, to gain an understanding of the fee-setting process and the
overall structure of the Cost Center’s operations. Additionally, for the IT Cost Center, Kearney
reviewed the Master Service Level Agreement, which outlined the Cost Center’s in-scope
services and performance criteria, to gain an understanding of the IT Cost Center’s core
operations.

        Kearney met with IT and SW Cost Center personnel to gain an understanding of each
Cost Center’s operations, including services provided to customers, activities covered by the
funds collected from customers, financial systems used, fee-setting methodologies, and
operational and financial processes. Kearney met with Bureau of Administration, Executive
Office, Working Capital Fund Division, officials to gain understanding of their role in Cost
Center management. Kearney met with personnel and contractors who maintain the Remedy
system used by the IT Cost Center to gain an understanding of the system design and its
relationship to the IT Cost Center service model. Kearney also met with personnel and
contractors that maintain the Integrated Logistics Management System (ILMS) to gain an
understanding of the system’s design and its relationship to the SW Cost Center’s operational
processes.

        In order to draw conclusions regarding the sufficiency of the Cost Centers’ fees, Kearney
obtained a complete and accurate picture of each Cost Center’s financial results and assessed the
logical assumptions used to determine the fees.
                                            35
                                       UNCLASSIFIED
                                             UNCLASSIFIED



Prior OIG Reports

         In 2010, OIG reported 1 that the Bureau of Information Resource Management was unable
to determine IT costs for bureaus’ IT activities. Therefore, there was no baseline for comparing
costs before and after the inception of the IT Cost Center. OIG also reported that bureau officials
did not believe that there was sufficient transparency regarding the fee amount charged for the
Cost Center. OIG concluded that the fee calculation was unclear and that the fee amount had
fluctuated during the implementation of the Cost Center. Kearney leveraged this report to
identify high risk areas related to the audit. Kearney did not perform audit work on the IT Cost
Center fees charged prior to FY 2011. Instead, Kearney relied on the conclusions drawn by OIG
in its 2010 report.

Use of Computer Processed Data
        The audit team used computer-processed data from the Department during this audit. For
each Cost Center, Kearney obtained revenue and expense detail from the Global Financial
Management System’s (GFMS) Data Warehouse. 2 For the SW Cost Center, Kearney obtained
financial information covering FY 2005 through FY 2012 and for the IT Cost Center, Kearney
obtained financial information covering FY 2009 through FY 2012. Kearney performed tests of
controls and substantive testing of the expenditure and revenue information obtained from
GFMS during the audit to assess the reliability of the data. In addition, GFMS is used to prepare
the annual financial statements, which are audited. Kearney determined that, based on how the
data would be used in the report, the assurances provided by the annual financial statement audit,
and the procedures performed during this audit, that the data was sufficiently reliable for its
needs.

        Kearney also used computer-processed data from the ILMS to test that all services
provided were recorded as revenues for the SW Cost Center. Specifically, Kearney obtained
activity data for each warehouse with receipt date, warehouse location, and shipment number
from FY 2007 to FY 2012. In order to assess the reliability of the ILMS data, Kearney ensured
that the information was consistent by reviewing the number of transactions recorded to each
warehouse during each year and ensuring that the distribution was consistent with expectations.
Based upon procedures performed, Kearney concluded that the data was sufficiently reliable for
its needs.

        Any issues noted with the computer-processed data used are reported in the Audit Results
section of the report.




1
  Evaluation of the Information Technology Consolidation Project at the Department of State (AUD/IT-10-11, Feb.
2010).
2
  Data Warehouse is a database tool that is used to create reports from the Department’s financial records. All
transactions recorded in the Department’s GFMS are stored in the Data Warehouse and can be accessed, queried,
downloaded, and analyzed.

                                                  36
                                             UNCLASSIFIED
                                             UNCLASSIFIED


Work Related to Internal Controls
        Kearney divided the overall audit objective into four sub-objectives:

            •    whether the Cost Centers’ revenue from fee collection was generally sufficient to
                 cover the cost of providing services.
            •    whether the fee-setting methodology was sufficient.
            •    the financial impact of flaws noted in the fee-setting methodology.
            •    the potential for cost savings.

Based upon the information obtained during preliminary audit procedures, Kearney performed a
risk assessment for each Cost Center that identified audit risks within each sub-objective and the
controls in place to address those risks.

        Where key controls were identified, Kearney reviewed documentation and performed
procedures to assess the design of the controls. Where controls were found to be properly
designed, Kearney performed procedures to test the operating effectiveness of the controls.
Based upon the assessed level of risk for each audit sub-objective and the results of control
testing, Kearney designed procedures that would enable Kearney to obtain sufficient and
appropriate evidence to conclude upon the audit sub-objective. In certain instances, these
procedures required sampling (see the Detailed Sampling Methodology section for additional
information). Any significant internal control deficiencies noted during the audit are reported in
the Audit Results section of the report.

Detailed Sampling Methodology

       Kearney’s sampling objectives were to obtain sufficient and appropriate evidence to
conclude upon each audit objective by determining whether

        •   All warehousing services provided by the SW Cost Center were recorded as revenue
            in GFMS.
        •   The expenses recorded for the SW Cost Center were incurred in execution of Cost
            Center activities.
        •   The amount billed to customers and recorded as revenue for the IT Cost Center was
            accurate and supported.

        Selection of SW Cost Center Revenue Sample

       For testing whether all warehousing services provided by the SW Cost Center were
recorded as revenue in GFMS, Kearney obtained the universe of ILMS receipt transactions,
which should reflect the amount of revenue for the SW Cost Center by warehouse location for
FY 2007 to FY 2012, 3 as shown in Table 1.


3
 The Department did not use ILMS prior to FY 2007. Kearney was unable to obtain sufficient information from the
prior system for its SW Cost Center revenue testing. Therefore, Kearney tested the Cost Center revenue for
FY 2007 through FY 2012.

                                                  37
                                             UNCLASSIFIED
                                                  UNCLASSIFIED


           Table 1. Number of ILMS Transactions by Warehouse Location
                                     Warehouse            Warehouse          Warehouse         Warehouse
               Fiscal Year
                                      SA-21                SA-7C              SA-10             SA-7B
                   2007                        2,506                1,178                  0                0
                   2008                        3,576                1,979                  0                0
                   2009                        2,522                1,106                  0                0
                   2010                        2,103                  920                  0                0
                   2011                        1,928                  706                  0                0
                   2012                        2,239                1,087                512            1,813
                   Total                      14,874                6,976                512            1,813
           Source: Prepared by Kearney based on receipts data from unclassified ILMS.

        The universe from ILMS only contained transactions processed on the unclassified side
of ILMS. Transactions for SA-7B and SA-10 were processed on the classified side of ILMS
prior to the implementation of the Warehouse Management System module, which occurred in
November 2011. The classified ILMS system did not produce useful reports on transactions
processed and so Kearney was unable to obtain a universe of transactions for Warehouses SA-10
and SA-7B for FY 2007 to FY 2011.

       For unclassified transactions, Kearney selected a judgment 4 sample of 45 items from the
unclassified ILMS universe to test whether services were recorded as revenue in GFMS.
Ensuring the inclusion of transactions covering all four warehouses was the primary criterion for
sample selection. Additionally, transactions were selected to encompass the entire scope period,
FYs 2007–2012. The items selected for testing by fiscal year and warehouse are shown in
Table 2.

    Table 2. Unclassified ILMS Transactions Selected for Testing
                          SA-21               SA-7C               SA-10                  SA-7B
                                                                                                         Total by
     Fiscal Year          Items               Items               Items                  Items          Fiscal Year
                         Selected            Selected            Selected               Selected
         2007                      0                  1                      0                      0              1
         2008                      2                  1                      0                      0              3
         2009                      3                  2                      0                      0              5
         2010                      3                  0                      0                      0              3
         2011                      3                  0                      0                      0              3
         2012                      5                  0                     12                     13             30
         Total                    16                  4                     12                     13             45
    Source: Kearney prepared based on unclassified ILMS data.

        For classified transactions, Kearney again selected a judgment sample of 45 items. To
test these transactions, however, Kearney manually reviewed the data because a universe of
transactions was not available from the classified ILMS system. The primary criterion for
inclusion into the sample was again coverage of all warehouses. Kearney also ensured that the
sampled items covered the entire period, FYs 2007–2011. Kearney selected transactions from
each fiscal year for each of the two warehouses as shown in Table 3.

4
  Kearney used a non-statistical sampling method known as “judgment sampling,” which uses discretionary criteria
to effect sample selection.

                                                       38
                                                  UNCLASSIFIED
                                                UNCLASSIFIED



       Table 3. Classified ILMS Revenue Transactions Selected for Testing
           Fiscal                   SA-10                              SA-7B                 Total by
           Year                Items Selected                     Items Selected            Fiscal Year
           2007                                         1                            5                     6
           2008                                         6                            5                    11
           2009                                         7                            6                    13
           2010                                         2                            1                     3
           2011                                         6                            6                    12
           Total                                       22                           23                    45
       Source: Prepared by Kearney based on review of data in classified ILMS.

        For each ILMS transaction selected, Kearney determined whether the transaction had
been properly recorded as revenue in GFMS. Kearney identified three unclassified and six
classified transactions that were not recorded in GFMS. However, the amount of the unrecorded
transactions was immaterial (approximately $3,000), so Kearney did not include this information
in the Audit Results section of the report.

         Selection of SW Cost Center Expense Sample

        For SW expense testing, Kearney obtained the universe of expense transactions from the
GFMS Data Warehouse GL Account Activity Extract report. This report was run by Kearney to
include all activity recorded to expense accounts during FY 2005 through FY 2012 for the SW
Cost Center (Treasury symbol 19X4519.0, allotment codes 8670 and 8637). Kearney adjusted
the universe of expenses by excluding transactions within the expense population that were
tested separately or were determined to be reasonable exclusions based on GFMS system logic
and information gathered from the client. 5 The adjustments to the universe of SW Cost Center
expenses totaled $13,356,493, leaving $55,268,095 remaining for sampling, as shown in Table 4.




5
  Specifically Kearney excluded: payroll accruals (which net to zero), inventory adjustments (which do not
represent the initial expense transactions), and payroll expenses (which were tested separately). Kearney also
excluded journal voucher transactions (which were reviewed separately); transactions that netted to zero; and credit
transactions. In addition, Kearney excluded transactions for FY 2005 and FY 2006 because supporting
documentation for FY 2005 and FY 2006 was not available due to the Department’s document retention policies.

                                                     39
                                                UNCLASSIFIED
                                                  UNCLASSIFIED


Table 4. GFMS Expense Transactions for the SW Cost Center – FY 2005 – FY 2012
                                                                                               Adjusted    Adjusted
                                                       Number of             Amount of        Number of    Amount of
    Fiscal     Number of    Amount of
                                                       Excluded              Excluded        Transactions Transactions
    Year      Transactions Transactions
                                                         Items                Items              for          for
                                                                                              Sampling     Sampling
    2005                2,507        $6,107,832                 2,507           $6,107,832               0               $0
    2006                2,379         4,403,803                 2,379            4,403,803               0                0
    2007                1,786         5,426,806                   645            1,524,805           1,141        3,902,001
    2008                2,313         6,536,631                   843              800,638           1,470        5,735,993
    2009                2,470         9,828,865                   932            1,756,888           1,538        8,071,976
    2010                2,574        11,952,402                 1,016            (203,743)           1,558       12,156,145
    2011                3,291        12,220,169                 1,460              241,495           1,831       11,978,674
    2012                3,224        12,148,080                 1,900          (1,275,226)           1,324       13,423,306
    Total              20,544       $68,624,588                11,682         $13,356,493            8,862      $55,268,095
Source: Prepared by Kearney based on GFMS data.
Note: Numbers in this table may not add because of rounding.

        From the adjusted population, Kearney selected a sample using the statistical sampling
technique known as Monetary Unit Sampling (MUS). 6 Kearney selected the sample using IDEA
Data Analysis Software 7 to achieve a confidence level of 95 percent. Kearney used a tolerable
error of 7 percent and expected misstatement of .50 percent. Based on these parameters,
Kearney used IDEA to select 48 sample items with a value of $4,427,218, as shown in Table 5.

                    Table 5. SW Cost Center Expenses Selected for Testing
                                                Number of Items               Amount of Items
                        Fiscal Year
                                                   Selected                      Selected
                            2007                                         2              $172,119
                            2008                                         5                337,589
                            2009                                         5                250,113
                            2010                                        12              1,383,177
                            2011                                        12                876,000
                            2012                                        12              1,408,220
                            Total                                       48             $4,427,218
                    Source: Prepared by Kearney based on sample selection.

       For each expense transaction selected for testing for the SW Cost Center, Kearney
obtained supporting documentation, such as an invoice, and reviewed the documentation to
6
  Monetary Unit Sampling is a sampling technique used to select a sample based on the proportionate unit size of the
sample to the overall universe. For purposes of this audit, the unit is the dollar value of the transaction. This means
that every dollar in the population has an equal chance of being selected. If a particular dollar unit is selected, the
entire transaction that is associated to the dollar unit will be selected for testing. Monetary Unit Sampling
determines the number of samples required to obtain the planned level of accuracy, precision, or confidence level,
and determines the unit intervals necessary to generate the total number of samples needed for testing.
Misstatements, whole or partial, in the sample population are projected over the universe based on the proportion of
the misstatement in the selected sample. This sampling technique is used when overstatements or low misstatements
are expected in the population.
7
  IDEA Data Analysis Software is a computer program that automates the calculations necessary for selecting and
analyzing samples. Based upon the parameters input by the user, IDEA will select a sample and aid in evaluating
the results of the sample.

                                                       40
                                                  UNCLASSIFIED
                                                  UNCLASSIFIED

ensure that the costs were incurred to support Cost Center operations. Any findings related to
this sample are included in the Audit Results section of the report.

              Selection of IT Cost Center Revenue Sample

       In order to determine whether each customer was billed correctly by the IT Cost Center,
Kearney obtained the universe of customers from the IT Cost Center’s Billing Tracker
spreadsheet. 8 The Billing Tracker spreadsheet shows the number of desktop computers billed for
each customer and the associated revenue, including amounts charged to customers for ad-hoc
services. Kearney reconciled Billing Tracker data to data obtained from GFMS Data Warehouse
to ensure that the use of the Billing Tracker as the universe for sampling was reasonable.

        Prior to selecting revenue samples for the IT Cost Center, Kearney excluded $3,546,299
related to for non-standard desktop computer services. These transactions were analyzed
separately; therefore, inclusion in sampling was not necessary. As shown in Table 6, the number
of customers that received a bill for standard desktop computer services were 154, totaling
$163,962,829.

Table 6. Billing Tracker Revenue Transactions for the IT Cost Center – FY 2009 –
FY 2012
                                               Number of
                                               Customers                               Adjusted      Adjusted
     Fiscal     Number of    Amount of                             Amount of Non-
                                             Receiving Non-                           Number of      Amount of
     Year       Customers   Transactions                          Standard Services
                                            Standard Services                         Customers       Services

     2009              23     $26,295,548                    0                   $0            23     $26,295,548
     2010              54      45,113,605                   12              929,990            42      44,183,616
     2011              62      47,854,316                   16            2,479,586            46      45,374,730
     2012              57      48,245,658                   14              136,723            43      48,108,935
   Total            196 $167,509,128                         42          $3,546,299           154    $163,962,829
Source: Prepared by Kearney based on Billing Tracker spreadsheet data.
Note: Numbers in this table may not add because of rounding.

       From the adjusted population, Kearney selected a sample using the statistical sampling
technique known as MUS. Kearney selected the sample using IDEA software to achieve a
confidence level of 95 percent. Kearney used a tolerable error of 7 percent and expected
misstatements of .50 percent. Based upon these parameters, IDEA selected a sample of 45
customers which comprised $99,156,440 of the universe amount, as shown in Table 7.




8
    The Billing Tracker is a Microsoft Excel file maintained by the IT Cost Center Budget Analyst.

                                                       41
                                                  UNCLASSIFIED
                                             UNCLASSIFIED


           Table 7. IT Cost Center Customers Selected for Testing Revenue
                                               Number of                  Amount Billed to
                   Fiscal Year
                                           Customers Selected            Customers Selected
                       2009                                          6             $14,099,904
                       2010                                         12              24,388,066
                       2011                                         14              30,478,330
                       2012                                         13              30,190,140
                       Total                                        45             $99,156,440
           Source: Prepared by Kearney based on sample selection.

        For each IT Cost Center revenue item selected, Kearney conducted various procedures in
an attempt to validate the amount billed to each customer. As documented in the Audit Results
section of this report, Kearney could not validate any of the amounts billed for the selected
transactions.




                                                  42
                                             UNCLASSIFIED
                                    UNCLASSIFIED


                                                                                                Appendix B



                                                            nited    ta les Department of tate

                                                          Wnshit~gloll .   D.C.   20520

                                                             August 27, 2013


MEMORANDUM

TO:            OIG- Harold W. Geisel

FROM:          A-lRMIEX- WilliamS. S. Amoroso, Executive Director             u/..dtJ4-
SUBJECT:       Audit of Selected Working Capital Fund Cost Center Financial Results

REF: OIG Memorandum's of August 9, 2013 to A-Joyce Barr and IRM-Steven Taylor


       Thank you for the opportunity to review and comment on the subject draft Audit Report.
As the Executive Office for both the Bureau of Administration and the Bureau of Information
Resource Management, we have combined the comments from both organizations in this
response. Mike Capozzi, Chief of the NEX Working Capital Fund Division is the point of
                                                              [Redacted] (b) (2), [Redacted] (b) (6)
contact on this audit and can be reached by calling (202) 48S

A Bureau Comments

        A Bureau concurs with the rnaJonty of the Secure Warehouse study, but strongly
disagrees with the proposal to include rent in the cost center' s price structure. We believe that
adding rent will increase prices to a point where our services will no longer be competitive from
a pricing perspective. In response to Recommendation I, the Bureau of Administration plans to
conduct an Activity Based Costing (ABC) study to determine the appropriate fees that should be
charged for WCF services. Until the results of this study are finalized, we are unable to
determine the impact that the other recommendations in this report will have on Secure
Warehouse operations. Our responses to all of the recommendations are documented below.

IRM Bureau Comments

        lRM agrees with the OIG that there are changes necessary to the cost model and billing
processes in the IT Cost Center. One aspect of these processes that warrants special attention is
the fiscal carryover noted by the OIG. Because the billing cycle for consolidated desktops aligns
in a way that spans fiscal years, IRM needs to retain I0 percent of annual invoices budget
(roughly SSM) in risk reserve as carryover to ensure the smooth provision of service to IT Cost
Center customers. IRM has taken action to reduce current carryover amounts by changing to a
per year equipment refresh cycle approach, rather than performing a full refresh every fourth
year. IRM has also developed a plan to fund approximately SSM of associated costs that had not
previously been covered by the fund, including full Remedy system annual costs and equipment
refresh and modernization. These actions will decrease the carryover noted by the OIG while
leaving a fiscally healthy risk reserve for the Cost Center.




                                         43
                                    UNCLASSIFIED
                                    UNCLASSIFIED




        While IRM agrees that improving the management of the IT Cost Center is possible and
desirable, the OIG's use of the terms used to describe the WCF's accounting practices could lead
to an interpretation that under represents the significant controls and oversight used to manage
the funds.

Recommendation Responses

Recommendation 1: OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division (AIEX/WCF), in coordination with the Secure Warehouses (SW)
Cost Center; reassess the fee amount for each of the services provided to ensure that all Cost
Center costs are covered. If officials determine that the new fees, which cover all required costs,
would be too high to charge to customers, then AIEX/WCF should identify cost savings that
would reduce overall expenses or reassess the decision to include the SW Cost Center as a
Working Capital Fund function. The results of the reassessment should be made available to
customers.

A Bureau Response: The Bureau of Administration agrees and will conduct an Activity Based
Costing (ABC) study to determine the correct fees for each of the WCF services. As part of the
ABC study, we will ensure that all appropriate costs are included

Recommendation 2: OIG recommends that the Bureau of Administration ensure that the formal
organizational definition of the Secure Warehouses Cost Center and Freight Forwarding Service
Center aligns to the operational management of these Cost Centers.

A Bureau Response: The Bureau of Administration concurs and will Separate the financial
results of SW Cost Center from the Freight Forwarding Service Center.

Recommendation 3: OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Secure Warehouses (SW) Cost Center,
develop a policy that details how often the SW Cost Center fees will be formally reassessed.

A Bureau Response: The Bureau of Administration agrees and will conduct the ABC studies
on a regular basis.

Recommendation 4: OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Secure Warehouses Cost Center,
perform an analysis to determine appropriate fees for each of the services provided to other
agencies.

A Bureau Response: The Bureau of Administration agrees and will use the ABC study
referenced in recommendation 1 to set appropriate fees for services provided to other agencies.

Recommendation 5: OIG recommends that the Bureau of Administration develop and
implement a procedure to ensure that transportation expenses are recorded to the same Working
Capital Fund Cost Center to which the related transportation revenues are recorded.




                                         44
                                    UNCLASSIFIED
                                  UNCLASSIFIED




A Bureau Response: The Bureau of Administration agrees and will develop a process to show
transportation revenue in the same cost center that is incurring the charge.

Recommendation 6: OIG recommends that the Bureau of Administration's Secure Warehouses
Cost Center revise the methodology used to calculate the amount charged for Extended Storage
to ensure that all Extended Storage charges incurred are billed to customers.

A Bureau Response: The Bureau of Administration agrees and will use the ABC study
referenced in recommendation 1 to set appropriate fees for Extended Storage and will implement
processes to bill storage regularly.

Recommendation 7: OIG recommends that the Bureau of Administration' s Secure Warehouses
Cost Center design and implement a process to review transactions excluded from automatic
billing and ensure that all exclusions are properly documented.

A Bureau Response: The Bureau of Administration agrees and will implement a process to
review transactions excluded from billing.

Recommendation 8: OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Secure Warehouses (SW) Cost Center,
identify all SW Cost Center costs and implement a process to pay for these costs using SW Cost
Center revenue.

A Bureau Response: The Bureau of Administration agrees and will use the ABC study
referenced in recommendation 1 to identify all SW Cost Center costs. AJl appropriate costs will
be included in the new rates developed through the ABC study.

Recommendation 9: OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Bureau of Information Resource
Management's Information Technology (IT) Cost Center, identify all IT Cost Center operating
costs and implement a process to pay for these costs using IT Cost Center revenue.

A and IRM Response: The Bureau of Administration concurs and will work with IRM to
review the IT Cost Center operating costs on an annual basis.

Recommendation 10: OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, align the funds received by the Information Technology Cost
Center from the Bureau of Information Resource Management (IRM) for Citrix licenses in FY
2011 to specific expenditures and return unspent funds to IRM.

A and IRM Response: The Bureau of Administration concurs and at IRM' s request, has already
submitted a reimbursement memo to BP instructing that the amount of $307,097 be returned to
IRM.




                                       45
                                  UNCLASSIFIED
                                   UNCLASSIFIED




Recommendation 11: OIG recommends that the Bureau of Administration, Executive Office,
Working Capital Fund Division, in coordination with the Bureau of Information Resource
Management's Information Technology Cost Center, recalculate the fee amount. The
methodology used when recalculating the fee should consider all relevant factors, including all
expenses that should be supported by Cost Center revenue, retained funds in excess of scheduled
capital needs, and a reasonable growth rate of the desktop computers. The results of the
reassessment should be made available to customers.

A and IRM Response: The Bureau of Administration concurs, and will review IRM's budget
submission to ensure new fees reflect all relevant expenses. IRM is currently recalculating the
fee based on its eight year correcting budget, which will be reviewed annually by IRM senior
management, Bureau of Budget and Planning, and Bureau of Administration Working Capital
Fund Division.

Recommendation 12: OIG recommends that the Bureau of Information Resource
Management's Information Technology (IT) Cost Center, determine the most efficient and
effective method for determining desktop computer counts for billing purposes. If a reliable
method to produce desktop computer counts cannot be determined, the IT Cost Center should
establish a different process to allocate IT Cost Center costs that can be supported.

IRM Response: IRM concurs, and is working with the Bureau of Administration's Office of
Program Management and Policy to implement a single automated solution to be executed in
fiscal year (FY) 2014 two months prior to the annual invoicing cycle.

Recommendation 13: OIG recommends that the Bureau of Information Resource
Management's Information Technology Cost Center update the Service Level Agreement to
outline the billing process by defining the methods of counting desktop computers and the
sources that will be used by the Cost Center as well as defining the methods of recourse for
customers that disagree with the Cost Center's desktop computer count.

IRM Response: IRM concurs and will update the Service Level Agreement in early FY14 as
defined by the outcome ofRecommendation 12

Recommendation 14: OIG recommends that the Bureau of Information Resource
Management's Information Technology Cost Center provide supporting documentation to
customers prior to the billing process, including the total number of desktop computers being
billed, the source of the desktop computer count, and a detailed listing of the desktop computers
included in the bill.

IRM Response: IRM began the process of providing documentation to its customers prior to the
billing process in FY13 and will continue this process going forward.

Recommendation 15: OIG recommends that the Bureau of Information Resource
Management's Information Technology Cost Center develop a process to ensure that all
noncustomers are billed for Help Desk services on an ad-hoc basis or that non-customers do not
receive Help Desk services.




                                        46
                                   UNCLASSIFIED
                                  UNCLASSIFIED




IRM Response: IRM concurs and has a team in place working with the Help Desk to identify
and document all processes and review all requests and services. Once this is completed in the
first quarter ofFYI4, IRM will initiate appropriate action to comply with this recommendation.




                                       47
                                  UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
